Report No. D-2011-024               December 16, 2010




     Air Force Space and Missile Systems Center's Use
            of Undefinitized Contractual Actions
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
DCAA                          Defense Contract Audit Agency
DFARS                         Defense Federal Acquisition Regulation Supplement
DPAP                          Defense Procurement and Acquisition Policy
EELV                          Evolved Expendable Launch Vehicle
FAR                           Federal Acquisition Regulation
FPDS-NG                       Federal Procurement Data System-Next Generation
GAO                           Government Accountability Office
IG                            Inspector General
PNM                           Price Negotiation Memorandum
SMC                           Space and Missile Systems Center
UCA                           Undefinitized Contractual Action
U.S.C.                        United States Code
                                      INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE 

                                      400 ARMY NAVY DRIVE 

                                 ARLINGTON , VIRGINIA 22202-4704 

                                                                                    December 16,2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)

SUBJECT: Air Force Space and Missile Systems Center's Use ofUndefinitized 

         Contractual Actions (Report No. D-2011 -024) 


We are providing this report for your information and use. We considered management comments
on a draft of this repoli when preparing the final report. This report is the third in a series of reports
and is part of a congressionally mandated periodic review of DoD use of undefinitized contractual
actions. Air Force Space and Missile Systems Center personnel did not consistently comply with
statutory and DoD requirements for managing undefinitized contractual actions, resulting in the
Air Force assuming additional risk in the award and negotiation process and possibly paying more
profit than necessary.

The comments from the Director of Contracting, Air Force Space and Missile Systems Center,
conformed to the requirements of DoD 7650.3. Therefore, no additional comments are required .

. We appreciate the cOUliesies extended to the staff. Please direct questions to me at (703) 604-9201
 (DSN 664-9201).




                                               Richard B. Jolliffe
                                               Assistant Inspector General
                                               Acquisition and Contract Management
Report No. D-2011-024 (Project No. D2009-D000CG-0248.002)                  December 16, 2010

                Results in Brief: Air Force Space and Missile
                Systems Center’s Use of Undefinitized
                Contractual Actions
What We Did                                              SMC personnel did not consistently comply with
                                                         UCA restrictions because:
Public Law 99-591, section 908(b) requires the
                                                             	 they did not fully explain the need to
DoD Inspector General to periodically audit
                                                                 begin performance before definitization
undefinitized contractual actions (UCAs) and
                                                                 within the UCA authorization request;
submit a report to Congress. This is the third in
a series of reports discussing DoD compliance                	 contractors submitted inadequate
with section 2326, title 10, United States Code.                 proposals, the Air Force changed
                                                                 requirements after SMC personnel issued
We reviewed 27 UCAs with a total not-to-exceed                   the UCAs, and the procurements were
value of about $4.8 billion awarded by the Air                   overly complex and large;
Force Space and Missile Systems Center (SMC)                 	 they inappropriately determined that the
during FY 2004 through September 18, 2009, to                    weighted guidelines did not provide
determine whether SMC personnel complied                         adequate profit;
with the restrictions of the United States Code              	 they did not adequately document the
and whether they appropriately justified and                     basis for determination of profit; and
definitized UCAs at reasonable prices.                       	 they did not take steps to implement the
                                                                 Office of Defense Procurement and
What We Found                                                    Acquisition Policy requirements for
SMC officials did not consistently comply with                   obligating funds.
statutory and DoD requirements for managing              As a result, the Air Force assumed increased risk
UCAs for 26 of the 27 UCAs that we reviewed.             in the award and negotiation process and may
SMC personnel did not:                                   have paid more profit than was necessary.
     properly prepare a request for
        authorization to issue 1 UCA,                    What We Recommend
     definitize 18 UCAs within the 180-day              Air Force officials should develop a metric for
        time frame,                                      measuring contractor responsiveness in
    	 reflect the contractor’s reduced risk             preparing qualifying proposals, require better
        during the undefinitized period in               coordination with customers to identify changes
        negotiated profit for 3 UCAs,                    in Government requirements, and require
    	 adequately support whether the                    contracting personnel to adequately document
        contractor’s reduced risk was reflected in       the profit determination for UCAs.
        negotiated profit for 11 UCAs,
                                                         Management Comments and
     obligate funds within allowable limits for
        3 UCAs, or                                       Our Response
     obligate funds according to contractor             The Director of Contracting, Air Force Space
        spending requirements for 9 UCAs.                and Missile Systems Center, agreed with our
However, SMC contracting personnel adequately            recommendations and provided responsive
justified using all 27 UCAs we reviewed and              comments on the recommendations. No further
adequately documented their determination of             comments are required. Please see the
price reasonableness for 26 of the UCAs.                 recommendation table on the back of this page.

                                                     i
Report No. D-2011-024 (Project No. D2009-D000CG-0248.002)       December 16, 2010


Recommendations Table

Management                        Recommendations           No Additional Comments
                                  Requiring Comment         Required
Director of Contracting , Air                                          1-6
Force Space and Missile Systems
Center




                                          ii
Table of Contents

Introduction	                                                                      1     


      Audit Objectives                                                             1

      Legislation and Congressional Report Requirement                             1

      Background on Undefinitized Contractual Actions                              1

      United States Air Force Space and Missile Systems Center                     3

      Review of Internal Controls at Air Force Space and Missile Systems Center    5



Finding. Inconsistent Management of Undefinitized Contractual Actions              6


      UCA Deficiencies           	                                                 7     

      SMC Complied With Authorization Requirements 	                               7

      SMC Lack of Compliance With Definitization Requirements 	                    8

      SMC Compliance With Requirements to Reflect the Undefinitized
              Period on Allowable Profit 	                                        17 

      SMC Compliance With Obligation Limitations 	                                23 

      Obligating Funds as Needed 	                                                24 

      Justification for Issuing UCAs	                                             25 

      Documentation of a Fair and Reasonable Price 	                              27 

      Change Orders           	                                                   28     

      Proactive Measures Taken 	                                                  29 

      Conclusion           	                                                      30     

      Recommendations, Management Comments, and Our Response                      31 


Appendices

      A. 	Scope and Methodology                                                   35 

             Prior Coverage                                                       38 

      B. August 29, 2008, Office of Defense Procurement and Acquisition 

             Policy Memorandum                                                    39 

      C. Undefinitized Contractual Actions Reviewed	                              41 

      D. Deficiencies Identified	                                                 45

      E. Definitization Elapsed Days for SMC UCAs 	                               47

      F. Air Force Policy Memorandum 10-C-03 	                                    49


Management Comments
     Air Force Space and Missile Systems Center 	                                 52 

Introduction
Audit Objectives
We determined Air Force Space and Missile Systems Center (SMC) compliance with
restrictions on undefinitized contractual actions (UCAs) imposed by section 2326,
title 10, United States Code (10 U.S.C. § 2326 [2009]), “Undefinitized contractual
actions: restrictions.” We also determined whether UCAs were appropriately justified
and definitized at reasonable prices. This is the third in a series of reports discussing
DoD compliance with 10 U.S.C. § 2326 (2009). See Appendix A for the scope and
methodology and prior coverage related to the objectives.

Legislation and Congressional Report Requirement
The DoD Inspector General (IG) is required by Public Law 99-591, “Continuing
Appropriations for Fiscal Year 1987,” section 908(b), to periodically conduct an audit of
UCAs. DoD IG Report No. D-2004-112, “Undefinitized Contractual Actions,”
August 30, 2004, was our last audit of UCAs. Section 908(b) of Public Law 99-591
states:
               Oversight by Inspector General.—The Inspector General of the
               Department of Defense shall—

               (1) periodically conduct an audit of contractual actions under the
               jurisdiction of the Secretary of Defense (with respect to the Defense
               Logistics Agency) and the Secretaries of the military departments; and

               (2) after each audit, submit to Congress a report on the management of
               undefinitized contractual actions by each Secretary, including the
               amount of contractual actions under the jurisdiction of each Secretary
               that is represented by undefinitized contractual actions.

Background on Undefinitized Contractual Actions
UCAs are agreements that allow a contractor to begin work and incur costs before the
Government and the contractor have reached a final agreement on contract terms,
specifications, or price. Contracting officers should use UCAs only when the negotiation
of a definitive contractual action is not possible in sufficient time to meet the
Government’s requirement. The Government’s requirement must also demand that the
contractor be given a binding commitment so that contract performance can begin
immediately.

UCA Restrictions
        Section 2326, title 10, United States Code, requires that the request to issue a
UCA be sent to the head of an agency, contain the anticipated impact on agency
requirements if a UCA is not used, and establish limitations on the obligation of funds,
the definitization of terms, and allowable profit for UCAs. The Government limits the
use of UCAs because these contracts place the Government at a distinct disadvantage in
negotiating final prices.


                                                 1

UCAs for foreign military sales, purchases that do not exceed the simplified acquisition
threshold, special access programs, and congressionally mandated long-lead procurement
contracts are not subject to compliance with 10 U.S.C. § 2326, but must comply with
Defense Federal Acquisition Regulation Supplement (DFARS) 217.74, “Undefinitized
Contract Actions,” to the maximum extent practicable. Both 10 U.S.C. § 2326 and the
DFARS provide additional restrictions for the approval, definitization, obligation of
funds, and determination of allowable contractor profit.

Specifically, to determine whether UCAs issued by SMC contracting personnel were in
compliance, we reviewed the following four areas:

   	 Authorization to Use a UCA: We evaluated whether contracting personnel issued
      UCAs only after obtaining proper authorization. Additionally, we reviewed the
      requests to issue a UCA to verify that the requests adequately addressed potential
      adverse impacts on agency requirements if a UCA was not issued.

   	 Contract Definitization: We evaluated whether SMC personnel definitized UCAs
      within 180-day time limits.

   	 Allowable Profit: We evaluated whether SMC contracting personnel’s 

      determination of contractor profit reflected the work performed during the 

      undefinitized period. 


   	 Compliance With Obligation Limitations: We evaluated whether SMC 

      contracting personnel obligated funding within allowable amounts. 


We also reviewed UCAs to determine whether SMC personnel appropriately justified the
UCAs and whether the UCAs were definitized at fair and reasonable prices. In addition,
we reviewed UCAs issued after August 2008, to determine whether SMC personnel
obligated funds according to the requirements stated in the Office of Defense
Procurement and Acquisition Policy (DPAP) memorandum, “Management Oversight of
Undefinitized Contract Actions,” August 29, 2008, (August 2008 DPAP memorandum).

Enhanced Reporting Requirements
        The August 2008 DPAP memorandum also required semiannual reporting of DoD
UCA usage for actions with an estimated value of more than $5 million. See Appendix B
for a copy of the memorandum. DPAP introduced the enhanced reporting requirement in
response to the Government Accountability Office (GAO) Report No. GAO-07-559,
“Defense Contracting: Use of Undefinitized Contract Actions Understated and
Definitization Time Frames Often Not Met,” June 2007, and Public Law 110-181, “The
National Defense Authorization Act for Fiscal Year 2008,” section 809, “Implementation
and Enforcement of Requirements Applicable to Undefinitized Contractual Actions.”

DFARS Case Rulings
        The 2007 GAO audit report resulted in DFARS Case 2007-D011, which clarified
that, per 10 U.S.C. § 2326, the direction in DFARS 217.74 provides the criteria (not


                                           2

Federal Acquisition Regulation [FAR] 16.603-2, “Application”) for planning the
definitization schedule for a letter contract.1 DFARS Case 2008-D034 expanded the
definition of “contract action” in DFARS 217.74 to include change orders and other un-
priced modifications. Previously, change orders and other un-priced modifications
adhered to guidance to the maximum extent practicable.

United States Air Force Space and Missile Systems
Center
The SMC mission is to “deliver unrivaled space and missile systems to the joint
warfighter and our nation.” The Air Force Space Command Web site identified SMC as
the center of technical excellence for researching, developing, and purchasing military
space systems. SMC is also responsible for on-orbit, check-out testing, sustainment, and
maintenance of military satellite constellations and other DoD space systems. SMC
manages between $50 and $60 billion in contracts at any one time, with an annual budget
in excess of $6.8 billion.

Wing Structure at SMC
       SMC is organized into wings by function. The wings depend on the Launch and
Range Systems Wing to provide launch vehicles and related services. SMC wings are
divided by function as listed by major contracting unit and program visited as follows:

    	 Launch and Range Systems Wing - Develops and acquires expendable launch
       and range systems and manages launch integration, mission assurance, and launch
       campaigns.

    	 Space-Based Infrared Systems Wing - Develops, acquires, and sustains space-
       based infrared surveillance, tracking, and targeting capabilities for missile early
       warning/defense and intelligence.

    	 Military Satellite Communications Systems Wing - Plans for, acquires, and
       sustains space-enabled, global communications capabilities to support national
       objectives.

    	 Space Superiority Systems Wing - Delivers and sustains space control systems
       to ensure space superiority for the joint warfighter and the nation.

    	 Developmental Planning Directorate - Constructively influences decisions
       affecting future systems for the control and exploitation of air and space.

    	 Global Positioning Systems Wing - Acquires and sustains survivable, effective,
       and affordable Global Positioning Systems services.


1
 A letter contract is a written preliminary contractual instrument that allows a contractor to start work
before the finalization of the contract terms.


                                                      3

Evolved Expendable Launch Vehicle Program
        The President authorized a new national space policy on December 21, 2004, after
the collapse of the commercial launch market to maintain critical skills and ensure United
States access to space to fulfill national security requirements. The National Space
Transportation Policy requires the Secretary of Defense to maintain two providers of
launch vehicles supporting the Evolved Expendable Launch Vehicle (EELV) program.
In 2005, the Government split the program into two efforts – expendable launch services
involving hardware (rockets) and expendable launch capability involving support and
maintenance. The two principal providers of launch vehicles and related services for the
EELV program formed a joint venture in December 2006. SMC transferred the rights,
duties, and terms from the existing contracts with the two principal providers to the joint
venture through a novation agreement.2

Space and Missile Systems Center UCA Usage
(FY 2004─September 18, 2009)
        We selected a nonstatistical judgment sample3 of 15 contracts that included
27 UCAs issued by SMC contracting personnel during FY 2004 through September 18,
2009, with a total UCA dollar value of about $4.8 billion. We initially identified letter
contracts through queries of the Federal Procurement Data System-Next Generation
(FPDS-NG). We excluded letter contracts related to foreign military sales,
congressionally mandated long lead procurements, or change orders after identifying
UCAs in FPDS-NG. We then requested, and SMC contracting personnel provided, a list
of UCAs issued from FY 2004 through September 18, 2009, from which we
judgmentally selected additional UCAs. See Appendix C for a list of UCAs reviewed.
Table 1 lists the number of contracts, the number of UCAs, and the total not-to-exceed
dollar value of the UCAs that we reviewed.




2
  With respect to Government contracts, a novation agreement is a legal instrument executed by the
contractor (transferor), successor in interest (transferee), and Government, by which the transferor
guarantees performance of the contract, the transferee assumes all obligations under the contract, and the
Government recognizes the transfer of the contract and related assets.
3
  A nonstatistical judgmental sample does not generalize to universe; therefore, audit results should not be
projected across all SMC UCAs.


                                                      4

          Table 1. Nonstatistical Judgment Sample of SMC UCAs by Wing 

                            FY 2004─September 18, 2009 

              UCA Source                      Number of      Number       Not-to-Exceed
                                              Contracts      of UCAs       Dollar Value
Launch and Range Systems Wing                    6              11        $2,136,665,850
Space-Based Infrared Systems Wing                2               4         2,117,900,000
Military Satellite Communications Wing           2               4           373,195,269
Space Superiority Systems Wing                   1               2            90,946,950
Developmental Planning Directorate                1              2            30,500,000
Global Positioning Systems Wing                  3               4            17,197,676
Totals                                           15             27        $4,766,405,745

Review of Internal Controls at Air Force Space and
Missile Systems Center
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for SMC. SMC did not consistently manage UCAs. Specifically, internal
control weaknesses allowed SMC contracting personnel to not definitize UCAs within
allowable time frames and to inadequately document how costs incurred during the
undefinitized period impacted the contractor’s profit. As a result, delays in definitizing
contracts may have weakened SMC’s position in price negotiations and increased the cost
to the Government. Additionally, SMC contracting personnel not adequately
documenting allowable profit may have resulted in excess profit. Implementing
Recommendations 1–5 in the Finding should improve SMC management of UCAs. We
will provide a copy of the report to the senior official responsible for internal controls at
Air Force Space and Missile Systems Center.




                                             5

Finding. Inconsistent Management of
Undefinitized Contractual Actions
SMC personnel did not consistently comply with statutory and DoD requirements for
managing 26 of 27 UCAs we reviewed. For the 26 UCAs, valued at $4.7 billion, SMC
personnel did not:
     prepare an adequate request for authorization to issue 1 UCA,
     definitize 18 UCAs within the 180-day time frame,
     reflect the contractor’s reduced risk during the undefinitized period in negotiated
       profit for 3 UCAs,
     adequately support whether the reduced risk during the undefinitized period was
       reflected in profit on 11 UCAs, and
     obligate funds within allowable limits for 3 UCAs.
In addition, SMC contracting personnel improperly obligated the maximum permissible
funding before definitization for 9 of 11 UCAs issued after August 2008. However, SMC
contracting personnel adequately justified all 27 UCAs and adequately documented their
determination of price reasonableness for 26 of the UCAs.

SMC contracting personnel issued a UCA with inadequate authorization because they did
not fully explain the need to begin performance before definitization within the UCA
authorization request. SMC contracting personnel were not able to definitize UCAs
within allowable time frames because of multiple contributing factors that included
contractors submitting inadequate proposals, changing Government requirements after
SMC personnel issued the UCAs, and the complexity and size of the procurements. SMC
contracting personnel negotiated a profit rate that did not reflect the reduced cost risk to
the contractor during the undefinitized period because they determined that the weighted
guidelines profit rate was inadequate for the contracted work. Further, SMC contracting
personnel did not adequately support whether the reduced risk during the undefinitized
period was reflected in profit because they prepared DD Forms 1547, “Record of
Weighted Guidelines Application” and price negotiation memoranda (PNM) that did not
provide sufficient detail that would allow an independent party to determine the basis for
profit determination. SMC personnel obligated funds in excess of the allowable limits
because they miscalculated the allowable obligation amount, they decreased the not-to-
exceed value without adjusting the amount obligated, and they treated a UCA as a change
order. Lastly, SMC contracting personnel obligated the maximum permissible funding
before definitization because they did not take steps to implement the requirements of the
August 2008 DPAP memorandum.

As a result, the SMC position in the price negotiation and contract award may have been
weakened and delays in definitizing contracts may have increased the cost risk to the
Government. Additionally, SMC personnel’s failure to reflect the contractor’s reduced
risk during the undefinitized period in negotiated profit may have resulted in the
Government paying more profit than was necessary.




                                             6

UCA Deficiencies
Our review of 27 UCAs issued by SMC contracting personnel identified a total of
45 deficiencies. UCA deficiencies consisted of six different types: inadequate
authorization requests to issue a UCA, untimely definitization, failure to reflect
contractor’s reduced cost risk in negotiated profit, insufficient documentation of
negotiated profit rate, obligating funds in excess of the allowable amounts, and obligating
funds to the maximum allowable amount at issuance. See Appendix D for further details
of the deficiencies. Table 2 identifies the reasons we considered the UCAs to be
deficient.
                      Table 2. Reasons UCAs Issued Were Deficient
                       Deficiency Reason                                            Number of
                                                                                    Instances*
Inadequate authorization request                                                         1
Untimely contract definitization                                                        18
Did not reflect the contractor’s reduced risk during the                                 3
undefinitized period in negotiated profit
Did not support whether the reduced risk during the                                          11
undefinitized period was reflected in profit
Obligation of funds in excess of allowable amounts                                            3
Obligation to maximum allowable funding at UCA issue                                          9
Total                                                                                        45
*A UCA may have more than one deficiency.

SMC Complied With Authorization Requirements
SMC contracting personnel obtained proper authorization before issuing UCAs for all
27 UCAs. However, for one UCA, SMC personnel prepared a request to issue a UCA
that did not comply with statutory and DoD regulations to fully explain the need to begin
performance before definitization. Both 10 U.S.C. § 2326 and the DFARS provide
guidance on issuing UCAs. Section 2326(a), title 10, United States Code, states:

                The head of an agency may not enter into an undefinitized contractual
                action unless the request to the head of the agency for authorization of
                the contractual action includes a description of the anticipated effect on
                requirements of the military department concerned if a delay is incurred
                for purposes of determining contractual terms, specifications, and price
                before performance is begun under the contractual action.

DFARS 217.7404-1, “Authorization,” requires that the contracting officer obtain
approval from the head of the contracting activity before entering into a UCA and also
requires that the request for UCA approval include a full explanation of the need to begin
contract performance before contract definitization. The head of the agency can delegate
the approval to issue a UCA depending on the dollar value of the action.




                                                    7

SMC contracting personnel issued one UCA that did not adequately explain, as required
by the DFARS, the need to begin performance before definitization within the
authorization request to issue a UCA. The Under Secretary of the Air Force requested a
review of the EELV Space Systems Acquisition Strategy before the initiation of new
contracts in 2004. SMC contracting personnel issued letter contract FA8816-04-C-0001,
with a not-to-exceed value of $410,000, for the effort. SMC contracting personnel
included the short completion time frame and 8-week period of performance in the
authorization request to issue the letter contract, but did not specify why performance
needed to begin before definitization. This single instance was not indicative of a larger
problem with authorizing UCA usage; therefore, we are not making a recommendation
on this issue.

SMC Lack of Compliance With Definitization
Requirements
SMC contracting personnel did not definitize 18 UCAs within the 180-day time frame
specified by 10 U.S.C § 2326 and the DFARS. SMC contracting personnel were not able
to definitize the 18 UCAs because of multiple contributing factors that included
contractors submitting inadequate proposals, Government personnel changing contract
requirements after SMC contracting personnel issued the UCA, and the complexity and
size of the procurements. In addition, SMC contracting personnel were unable to
definitize in a timely manner three of the four UCAs issued as a result of the formation of
a joint venture by the two principal EELV providers.

Section 2326(b), title 10, United States Code, states:

           A contracting officer of the Department of Defense may not enter into an
           undefinitized contractual action unless the contractual action provides for
           agreement upon contractual terms, specifications, and price by the earlier
           of—

               (A) the end of the 180-day period beginning on the date on which the
               contractor submits a qualifying proposal to definitize the contractual
               terms, specifications, and price; or

               (B) the date on which the amount of funds obligated under the
               contractual action is equal to more than 50 percent of the negotiated
               overall ceiling price for the contractual action.

Section 2326(g)(2) defines a “qualifying proposal” as:

               . . . a proposal that contains sufficient information to enable the
               Department of Defense to conduct complete and meaningful audits of
               the information contained in the proposal and of any other information
               that the Department is entitled to review in connection with the
               contract, as determined by the contracting officer.




                                                 8

DFARS 217.7403, “Policy,” states that UCAs shall only be used when contracting
officials cannot negotiate definitized contracts in sufficient time to meet the requirements
of the Government. DFARS 217.7404-3, “Definitization schedule,” states:

           UCAs shall contain definitization schedules that provide for definitization
           by the earlier of:

               (1) the date that is 180 days after issuance of the action (this date may
               be extended but may not exceed the date that is 180 days after the
               contractor submits a qualifying proposal), or

               (2) the date on which the amount of funds obligated under the contract
               action is equal to more than 50 percent of the not-to-exceed price.

DFARS 217.7404-3(b) further states that the contractor proposal submitted in accordance
with the definitization schedule is a material element of the contract, and if the contractor
does not submit a timely qualifying proposal, the contracting officer may suspend or
reduce progress payments or take appropriate action.

Of the 27 UCAs reviewed, SMC personnel exceeded the time limits for 18 UCAs. See
Appendix E for elapsed days between UCA issuance and definitization. On average,
SMC contracting personnel averaged 335 days from UCA issuance to definitization for
the 18 late actions. Additionally, for the 18 late actions, SMC contracting personnel took
an average of 139 days to receive a qualifying proposal and 230 days to definitize the
UCA after a qualifying proposal was received.

Contributing Factors for Untimely Definitization
        SMC personnel were unable to definitize 18 of the 27 UCAs within required time
frames. Table 3 shows the contributing factors for SMC contracting personnel not being
able to definitize the 18 UCAs within the required time frames.




                                                  9

                    Table 3. Contributing Factors for Late Definitization
     Contract Number                Proposal           Change in             Complexity        Other1
                                     Issues           Government              & Size of
                                                      Requirement             Program
FA8816-06-C-0002 P00055                 √                                        √2               √
FA8816-06-C-0002 P00121                 √                                        √                √
FA8816-06-C-0002 P00124                 √
FA8807-08-C-0006                                                                                  √
FA8807-05-C-0001 P00002                 √                                         √               √
FA8808-06-C-0001                                             √                    √
FA8810-08-C-0002                                                                  √               √
FA8810-08-C-0002 P00002                                                           √               √
FA8810-08-C-0002 P00007                                                           √               √
FA8810-09-C-0002                                                                                  √
FA8811-08-C-0005                        √                                         √2              √
FA8819-08-C-0006                        √                    √                                    √
FA8819-08-C-0006 P00002                 √                    √                                    √
FA8816-06-C-0001 P00011                 √                                         √2              √
FA8816-06-C-0004                        √
FA8816-06-C-0004 P00003                 √                                         √               √
FA8816-06-C-0004 P00009                 √                                                         √
FA8816-06-C-0004 P00012                                      √
            Totals                      11                    4                    10             14
1
  Other reasons included staffing shortages, truth in negotiations disclosure updates, prolonged contract
negotiations, SMC disagreements over subcontracting plan, and SMC administrative delays.
2
  EELV Joint Venture

Proposal Issues
        Contractors not submitting adequate proposals in a timely manner contributed to
11 late definitizations. The contractor proposals were inadequate because the contracting
officer determined that they did not contain sufficient information to enable DoD
personnel to conduct complete and meaningful audits of the information contained in the
proposal, or the contracting officer determined the proposals contained questionable
costs. Prime contractors’ use of multiple subcontractors and proposal resubmissions also
added time to the undefinitized period. Contractor resubmissions often required that the
Defense Contract Audit Agency (DCAA) perform additional audit work and SMC
personnel to perform additional technical reviews. If DoD personnel determine that the
revised proposal is inadequate then the revision process starts again. SMC should
develop a metric for measuring contractor responsiveness to requests to preparing
qualifying proposals. The following four UCAs are examples of how problems with
inadequate proposals contributed to delays in definitization. In addition to the four
examples, SMC personnel identified proposal issues as a contributing factor for the
untimely definitizations of seven other UCAs.




                                                     10

Contract FA8811-08-C-0005
                SMC contracting personnel were unable to definitize contract FA8811-08-
C-0005, with a not-to-exceed value of $505.3 million, within required time frames. SMC
contracting personnel awarded the contract on January 24, 2008, for launch vehicle
services for three missions. The delay in definitization resulted when DCAA determined
the contractor’s initial proposal to be an inadequate basis for negotiation of a fair and
reasonable price. SMC officials required the contractor to revise its original proposal to
include a consolidated bill of materials. The contractor did not submit the second
revision until November 20, 2008, because it had problems revising its proposal. SMC
contracting personnel and DCAA discovered multiple inadequacies in the second
proposal, and the contractor withdrew the proposal. The contractor submitted a third
proposal that included an addendum for a fourth mission. Contract FA8811-08-C-0005
could not be definitized in time to ensure the lead-time required for the fourth mission
would be available and because the mission was outside the scope of the UCA. The
fourth mission was subsequently awarded under a separate contract. DCAA submitted a
report on all four of the missions on April 14, 2009, and questioned 13 percent of the
proposed costs. DCAA considered the proposal an unacceptable basis for negotiation of
a fair and reasonable price based on significant proposal noncompliance and
inadequacies. SMC contracting personnel did not receive a qualifying proposal until
361 days after issuing the UCA and were unable to definitize the contract until 571 days
after issuing the UCA.

Contract FA8816-06-C-0002, Modification P00124
                SMC contracting personnel were unable to definitize contract FA8816-06-
C-0002, modification P00124, with a not-to-exceed value of $15 million, within required
time frames. SMC contracting personnel awarded the UCA on January 16, 2009, for
revisions to the annual launch rate capability on the Atlas V EELV Launch Capability
contract to allow the contractor to sustain a 5-per-year launch rate capability. DCAA
determined that the initial proposal received from the contractor was inadequate. The
contractor updated the proposal three times: once in response to the adverse DCAA audit,
once to include actual costs-to-date plus an estimate to complete, and once to add
5 weeks of effort that were not included in the second update. As a result, SMC
contracting personnel did not receive a qualifying proposal until 244 days after the UCA
was issued. SMC contracting personnel definitized the contract 13 days later.

Contract FA8816-06-C-0004, Modification P00009
                SMC contracting personnel were unable to definitize contract FA8816-06-
C-0004, modification P00009, with a not-to-exceed value of $95.7 million, within the
required time frames. SMC contracting officials awarded the UCA on December 19,
2008, for the National Reconnaissance Office Launch 41 Launch Order and to allow the
contractor to commence work associated with Mission National Reconnaissance Office
Launch 41 Launch Services. DCAA received a revised proposal and anticipated
completion of its audit by February 27, 2009. In February 2009, DCAA was unable to
obtain contractor records, requested additional time, and in April 2009, requested the
contractor to provide updated cost and pricing data. DCAA completed the audit on
April 8, 2009, and determined that the contractor’s proposal disclosed significant issues


                                           11

and limitations that impacted the acceptability of the proposal for negotiation of a fair and
reasonable price. As a result of the proposal problems, SMC contracting personnel were
unable to definitize the UCA until 261 days after receiving a qualifying proposal.

Contract FA8819-08-C-0006
                 SMC contracting personnel were unable to definitize contract FA8819-08-
C-0006, with a not-to-exceed value of $35.3 million, within the required time frames.
SMC contracting personnel awarded the contract on June 24, 2008, for Space-Based
Space Surveillance Block 10 Maintenance and Operations Requirements startup
activities, to include development of plans, logistics support, involvement in training and
rehearsal activities, and procurement of necessary hardware and other depot maintenance
activities. SMC contracting personnel were unable to definitize the pre-planning
activities in a timely manner due to a series of events including proposal inconsistencies,
requirements changes, launch delays, and delayed DCAA audits. According to the
contracting officer, the UCA exceeded the 180-day limitation because of launch delays
and the contractor submitting multiple proposals in response to changes in the Air Force
requirement. As a result of proposal problems and other contributing factors, SMC
contracting personnel were unable to definitize the UCA until 357 days after receipt of a
qualifying proposal and 478 days after issuing the UCA.

Changes in Government Requirements
        SMC contracting personnel were unable to definitize four UCAs within the 180-
day requirement; in part because program office personnel changed requirements after
SMC contracting personnel issued the UCA. After issuing a UCA, contracting personnel
have little control over changing customer requirements. Each significant change in
requirements requires the contractor to prepare or revise a proposal that contracting
personnel must then review. SMC contracting and program office personnel should
better coordinate with customers and management to identify changes in Government
requirements as soon as practicable and document changes in the acquisition narrative.
In addition to the following two examples, SMC contracting personnel identified changes
in Government requirements as a contributing factor for one other UCA. SMC
contracting personnel were unable to definitize the following UCAs within the 180-day
requirement.

Contract FA8819-08-C-0006, Modification P00002
               SMC contracting personnel were unable to definitize contract FA8819-08-
C-0006, modification P00002, with a not-to-exceed value of $55.6 million, within the
required time frames. SMC contracting personnel awarded the UCA on December 22,
2008, for the Space-Based Space Surveillance Block 10 Maintenance and Operations
Requirements. The contractor submitted a series of proposals to the Government. SMC
personnel stated in the PNM that the proposal submissions and revisions were caused by
changes to the Government’s requirements, proposal ambiguities, disconnects between
contractor and Government understanding of requirements, and audit delays. The
contractor submitted six proposal updates and revisions post-audit that addressed changes
in the methodology, changes in launch dates, proposal inconsistencies, and rate updates.



                                             12

SMC contracting personnel took 388 days to definitize the UCA after issuance because of
changes in Government requirements and proposal problems.

Contract FA8808-06-C-0001
                SMC contracting personnel were unable to definitize contract FA8808-06-
C-0001, with a not-to-exceed value of about $148.2 million, within the required time
frames. SMC contracting personnel awarded the UCA on February 17, 2006, for
Wideband Gapfiller Satellite 4 advance procurement and nonrecurring engineering.
SMC requested that the contractor update the proposal to include six over-and-above
scope efforts during the undefinitized period. SMC contracting personnel took 4 months
to negotiate the UCA because the contractor proposed a 100/0 share ratio to bridge a
$20 million gap between the Government and contractor’s target cost position. SMC
contracting personnel took 242 days to definitize the UCA after issuance because of
changes in Government requirements and prolonged negotiations.

Impact of Size and Complexity on Definitization
        The size and the complexity of the UCA contributed to the time necessary to
definitize 10 of the UCAs that we reviewed. SMC contracting personnel took less time to
definitize UCAs with lower not-to-exceed values and more time to definitize complex
UCAs with higher not-to-exceed values for the UCAs. For the UCAs that we reviewed
with the six lowest and six highest not-to-exceed values, SMC personnel required more
time to definitize the UCAs with higher dollar values because of the complexity and size
of the programs. SMC contracting personnel execute procurements that require labor-
and time-intensive technical reviews and require DCAA advisory audits that impact the
definitization time frames. In addition, contractors take additional preparation time for
complex proposals, and SMC contracting personnel take more time to negotiate definitive
contracts.

Attributes of the UCAs with the Six Lowest Not-to-Exceed Values
               SMC personnel were generally able to definitize UCAs with lower not-to-
exceed values in shorter time frames; however, three of the six UCAs with the lowest
not-to-exceed values took longer than 197 days from issuance to definitization. The
average not-to-exceed value of the six UCAs with the lowest not-to-exceed values was
$3.4 million. SMC contracting personnel were able to definitize UCAs with lower not-
to-exceed values in shorter time frames because the programs were smaller, the number
of subcontractors was lower, and DCAA proposal audits were completed in shorter time
frames. Table 4 shows the UCAs with the six lowest not-to-exceed values.




                                           13

      Table 4. Definitization Time Frames for the Six Lowest Dollar Value Actions
       Contract Number               Not-to-Exceed             Days from       Days from            Days from
                                                               Issuance to     Qualifying           Issuance to
                                                               Qualifying      Proposal to         Definitization
                                                                Proposal      Definitization
   FA8807-05-C-0001                     $121,377                    69              42                   111
   FA8816-04-C-0001                     $410,000                    43              78                   121
   FA8816-06-C-0004                    $3,000,000                   47             198                   245
   FA8807-08-C-0006                    $4,311,299                  NA2            NA2                    197
   FA8807-07-C-0005                    $6,000,000                  128             123                   251
FA8807-05-C-0001 P00002                $6,765,000                  247              42                   289
               Averages                $3,434,613                  107              97                   202
                                                     1
    Average For All 23 UCAs           $132 million                  97             168                   268
1
  Does not include four actions related to the formation of the joint venture by the two principal contractors 

for the EELV program. 

2
  Qualifying proposal received before UCA issuance. 


Attributes of the UCAs With the Six Highest Not-to-Exceed Values
SMC UCAs with the six highest not-to-exceed values were all definitized after the
allowable time frames. The six highest dollar value UCAs had an average not-to-exceed
value of $418.7 million and took an average of 377 days to definitize from issuance. The
extended definitization time frames were attributable to the size and complexity of the
programs and services procured. UCAs for higher dollar procurements require labor- and
time-intensive DCAA proposal audits. Additionally, prime contractors on larger
programs often work with more subcontractors, and accumulating data from multiple
subcontractors can require additional time for proposal preparation. We excluded four
UCAs related to the formation of the joint venture by the two prime EELV providers
because the event was extraordinary and would have increased the number of days to
definitize a UCA and distorted the overall results. Table 5 shows the UCAs with the six
highest not-to-exceed values. Contract FA8810-08-C-002, modification P00002 is an
example of how the size and complexity of the action impacted the time necessary to
definitize.




                                                         14

    Table 5. Definitization Time Frames for the Six Highest Dollar Value Actions
     Contract Number                 Not-to-Exceed             Days from       Days from            Days from
                                                               Issuance to     Qualifying           Issuance to
                                                               Qualifying      Proposal to         Definitization
                                                                Proposal      Definitization
FA8816-06-C-0004 P00003               $119,000,000                 NA2            NA2                    258
FA8816-06-C-0004-P00012               $145,200,000                  20             656                   676
   FA8808-06-C0001                    $148,195,269                 NA2            NA2                    242
FA8810-08-C-0002 P00007               $262,500,000                 NA2            NA2                    328
   FA8810-08-C-0002                   $350,000,000                 252             138                   390
FA8810-08-C-0002 P00002              $1,487,400,000                NA2            NA2                    370
                Averages              $418,715,878                 136             397                   377
                                                     1
 Average For All 23 UCAs              $132 million                  97             168                   268
1
  Does not include four actions related to the formation of the joint venture by the two principal contractors 

for the EELV program. 

2
  Qualifying proposal received before UCA issuance.


Example of High Dollar Value Complex Definitization
                SMC contracting personnel were unable to definitize contract FA8810-08-
C-0002, modification P00002, with a not-to-exceed value of about $1.5 billion, within the
required time frames. SMC contracting personnel awarded the UCA on May 29, 2009,
for the production of the third Geosynchronous Earth Orbit Satellite, production of the
Highly Elliptical Orbit Payload, and modification of the Space-Based Infrared Ground
System. SMC contracting personnel received a qualifying proposal before issuing the
UCA, but the technical evaluation of the proposal took 191 days and over 50 SMC
personnel to complete. Additionally, DCAA took 214 days to complete the proposal
review, and contract negotiations took 96 days before the contract was definitized. SMC
contracting personnel took 370 days to definitize the UCA because of the complexity and
size of the effort, prolonged negotiations, and lengthy time frames for technical and
DCAA reviews.

Contracts Affected by Joint Venture Formation
        SMC contracting personnel were unable to definitize in a timely manner three of
the four UCAs issued as a result of the formation of a joint venture by the two principal
EELV providers. SMC personnel experienced delays in definitizing the UCAs because
of issues that arose during the formation process. The joint venture submitted proposals
using the forward pricing rate agreements of the original EELV providers. The joint
venture, as part of the formation agreement, assured the Government of cost efficiencies
and savings as a result of the formation. SMC contracting personnel were unable to
definitize three of the four UCAs related to the formation of the joint venture because the
Defense Contract Management Agency took 7 months to establish forward pricing rate
agreements, the joint venture frequently updated and revised proposals, and negotiations
were prolonged because of contract size and complexity. Additionally, DCAA had to
complete complex and time-intensive proposal reviews for the joint venture that added



                                                         15

additional complications and definitization delays. SMC personnel received a qualifying
proposal before issuing the UCAs for 3 of the 4 actions and took an average of 320 days
from issuance to definitization for the 4 actions. The four UCAs accounted for
$1.7 billion, or about 36 percent, of the total not-to-exceed value of the 27 UCAs
reviewed. The following three UCAs are examples of how the formation of the joint
venture contributed to the time necessary for SMC contracting personnel to definitize the
four UCAs.

Contract FA8816-06-C-0002, Modification P00055 and Contract
FA8816-06-C-0001, Modification P00011
                SMC contracting personnel were unable to definitize two similar UCAs
issued to the two principal EELV providers on contracts FA8816-06-C-0002,
modification P00055, with a not-to-exceed value of about $459 million, and FA8816-06-
C-0001, modification P00011, with a not-to-exceed value of about $583 million. SMC
contracting personnel issued the UCAs to maintain critical skills and support
infrastructure- and noninfrastructure-related activities for the EELV program. SMC
contracting personnel issued both UCAs in October 2007. SMC contracting personnel
experienced delays in definitizing the UCAs because the Defense Contract Management
Agency took 7 months to establish forward pricing rate agreements for the joint venture.
Additionally, DCAA determined proposals submitted by the joint venture to be
inadequate because they relied upon forward pricing rate agreements from the original
EELV providers. As a result, the joint venture updated its proposal numerous times
during the undefinitized period. SMC contracting personnel took nearly 3 months to
negotiate definitized contracts because of the size and complexity of the UCAs. In total,
the UCAs remained undefinitized for 269 days for FA8816-06-C-0002 and 305 days for
FA8816-06-C-0001.

Contract FA8811-08-C-0005
                SMC contracting personnel were unable to definitize contract FA8811-08-
C-0005, with a not-to-exceed value of $505.3 million, within required time frames. SMC
contracting personnel issued the UCA on January 24, 2008, to preserve the launch dates
for three missions of an EELV contract. SMC contracting personnel experienced delays
in definitizing the contract because the joint venture submitted four proposals that DCAA
determined to be inadequate for negotiating a fair and reasonable price. As a result of
problems with the joint venture’s proposal, which included revisions due to changes in
accounting systems and policies, SMC contracting personnel did not receive a qualifying
proposal until 361 days after the UCA was issued, and SMC contracting personnel
definitized the UCA 210 days after receiving a qualifying proposal. The UCA was
undefinitized for a total of 571 days.

Other Impacts on Definitization Time Frames
        SMC contracting personnel were unable to definitize UCAs in a timely manner
and cited issues with inexperienced contractors, staff unavailability, prolonged
negotiation time frames, launch delays, and staff shortages. In addition to the three
following examples, SMC contracting personnel identified 12 instances in which other
factors delayed definitization in combination to proposal problems, changes in


                                           16

Government requirements, and the size and complexity of UCAs. Of the 15 instances,
3 related to the formation of the joint venture by the two principal EELV providers.

Contract FA8807-05-C-0001, Modification P00002
               SMC contracting personnel were unable to definitize contract FA8807-05-
C-0001, modification P00002, with a not-to-exceed value of about $6.8 million, within
the required time frames. SMC contracting personnel awarded the UCA on
September 14, 2005, for phase 2 of the Rubidium Atomic Frequency Standard
Modification program. SMC contracting personnel received a qualifying proposal
247 days after issuing the UCA because the contractor was inexperienced with the
proposal process. Additionally, the contractor made assumptions about Government-
furnished property that resulted in a 2-month delay and a revised not-to-exceed value.

Contract FA8816-06-C-0002, Modification P00121
                SMC contracting personnel were unable to definitize contract FA8816-06-
C-0002, modification P00121, with a not-to-exceed value of $27.5 million, within the
required time frames. SMC contracting personnel awarded the UCA on November 6,
2008, for the acquisition of EELV Launch Capabilities Mission-Unique integration and
Mission-Unique Non-Flight Hardware and a Geo-Synchronous Orbit Kit. SMC
contracting personnel received a qualifying proposal the day after the UCA was issued
and completed fact finding efforts over a 3-month period because of staff unavailability
and the complexity of the proposal. Additionally, after SMC personnel had completed
technical evaluations of the contractor’s proposal, disclosure updates materially impacted
prices and the technical evaluations had to be revised causing the UCA to be definitized
220 days after SMC personnel received the qualifying proposal.

Contract FA8810-08-C-0002
        SMC contracting personnel were unable to definitize contract FA8810-08-C-
0002, with a not-to-exceed value of $350 million, within required time frames. SMC
contracting personnel awarded the UCA on March 14, 2008, for long-lead supplies and
services for the production of Geosynchronous Earth Orbit Satellite number three and
Highly Elliptical Orbit Payload number three. SMC contracting personnel did not
receive a qualifying proposal from the contractor for 252 days because of extensive pre-
coordination shoulder-to-shoulder activity between the SMC contracting personnel and
the contractor. SMC contracting personnel held the pre-coordination meetings to clarify
objectives and understandings before formal proposal submission because of parts
obsolescence and known deficiencies with the production of earlier portions of the
acquisition. As a result, SMC contracting personnel took 390 days to definitize the UCA.

SMC Compliance With Requirements to Reflect the
Undefinitized Period on Allowable Profit
SMC contracting personnel issued 3 UCAs that did not reflect the reduced cost risk to the
contractor in the negotiated profit during the undefinitized period and issued 11 UCAs
that did not include sufficient support that would allow an independent party to determine
the basis for their profit determination. SMC contracting personnel were required to use


                                           17

a weighted guidelines method to develop a profit objective for 18 of the UCAs.4 SMC
contracting personnel used a Web-based tool to apply the weighted guidelines method for
16 of the UCAs. However, the Web-based tool’s output, DD Form 1547, “Record of
Weighted Guidelines Application,” was inadequate as sole support for profit
determination because it did not clearly document how the undefinitized period was
reflected in the contractor’s profit or fee. The DD Form 1547 was inadequate because it
did not clearly document the:
        degree to which costs were incurred before definitization,
        risk factors assigned to the incurred cost and projected cost when the weighted
         guidelines application was used, and
        resulting impact on the contractor’s profit or fee.

In addition, SMC contracting personnel’s discussions on profit determination in the
PNMs were insufficient to adequately document the degree to which costs were incurred
before definitization or did not contain adequate documentation that supported how the
undefinitized period was reflected in the contractor’s profit or fee for 11 UCAs. During
the undefinitized period, the Government bears increased risk, and the contractor
generally bears reduced risk. If the contractor’s reduced risk is not reflected in the
negotiated profit rate, then the Government could be paying too much profit to the
contractor.

Requirements to Reflect Reduced Cost Risk in the Contractor’s
Profit or Fee
       Both 10 U.S.C. 2326 and the DFARS provide guidance on profit determination,
and the FAR provides guidance on documentation of the price negotiation.
Section 2326(e), title 10, United States Code, states:

             The head of an agency shall ensure that the profit allowed on an
             undefinitized contractual action for which the final price is negotiated after
             a substantial portion of the performance required is completed reflects—

                  (1) the possible reduced cost risk of the contractor with respect to costs
                  incurred during performance of the contract before the final price is
                  negotiated; and

                  (2) the reduced cost risk of the contractor with respect to costs incurred
                  during performance of the remaining portion of the contract.

DFARS 215.404-4, “Profit,” requires that contracting officers use a structured approach
for developing a pre-negotiation profit or fee objective on any negotiated contract action


4
  Eight of the UCAs were exempt from the requirement to reflect the contractor’s possible reduced cost risk
in the allowable profit because the contract type was cost-plus-award-fee (6) and the not-to-exceed value of
the UCA was below the threshold for obtaining cost or pricing data (2), therefore, use of the weighted
guidelines was not required. One UCA was definitized on September 13, 2010, but SMC personnel did not
provide a completed price negotiation memorandum to the audit team so a full analysis could not be
completed.


                                                     18

when the contractor provides cost or pricing data, except for cost-plus-award-fee
contracts or contracts with Federally Funded Research and Development Centers.
DFARS 215.404-4 further states that the weighted guidelines method is the structured
approach that must be used, with certain limited exceptions. FAR 15.406-3,
“Documenting the Negotiation,” states that the PNM is the required document in which
the contracting officer must document the basis for the profit or fee prenegotiation
objective and the profit or fee negotiated.

Reduced Risk Not Reflected in Government’s Negotiation
Position
        SMC contracting personnel did not comply with the requirement in 10 U.S.C.
2326(e) to reflect the undefinitized period in the contractor’s profit or fee because they
relied on guidance with a lower precedent when developing the Government’s
negotiation position. SMC contracting personnel issued three UCAs on contract
FA8808-04-C-0022, each with a not-to-exceed of $75 million, to extend the period of
performance for the Transformational Communications Satellite Risk Reduction Systems
Definition effort by 6 months. SMC personnel did not reflect the impact of the
undefinitized period on the contractor’s profit or fee because they used FAR 15.404-
4(c)(6), “Profit,” which permits contracting officers to use the basic contract’s profit or
fee rate as the prenegotiation objective for a change or modification to a contract if the
change or modification calls for essentially the same type and mix of work as the basic
contract and is of relatively small dollar value compared to the total contract value. SMC
contracting personnel considered the reduced cost risk when using the weighted
guidelines to develop the Government’s objective profit rates for the UCAs; however,
they used profit rates that were higher than those generated by the weighted guidelines
tool as a basis to begin negotiations.

SMC contracting personnel documented in the PNM for each of the three UCAs that the
profit rate objective generated by the weighted guidelines was insufficient to stimulate
efficient contract performance and to attract the best talent required for the highly
complex technical effort. SMC contracting personnel used these factors to justify a profit
rate that was higher than the weighted guidelines rate but did not reflect how the UCA
impacted the Government’s profit position at negotiation. SMC contracting personnel’s
use of a higher profit rate did not appropriately consider that the majority of the work had
been completed before definitization. Additionally, SMC contracting personnel noted
that the action was of relatively small dollar value to the total contract. However, each
UCA represented a $75 million continuation of a program into which the Government
had already invested $514 million. As a result, SMC contracting personnel entered into
negotiations with profit positions that did not reflect the contractor’s reduced risk during
the undefinitized period as indicated by the weighted guidelines. The Government’s
negotiation position on profit was higher than if the weighted guidelines had been used.
SMC should develop procedures to ensure that the Government’s position at UCA




                                            19

 definitization reflects reduced contract type risk. Table 6 shows the profit rate if the
weighted guidelines had been used, the actual amount of profit that was paid to the
contractor for each of the UCAs, and the difference.

                   Table 6. Comparison of Objective Profit Using Weighted
                        Guidelines Rate and Actual Profit Paid
Modification      Total Costs       Weighted          Profit Using       Actual       Difference
 Number            Excluding        Guidelines         Weighted        Profit Paid
                 Cost of Money        Rate           Guidelines Rate    (~10%)
P00043            $67,759,434         6.5%            $4,404,363       $6,775,944     $2,371,581
P00046              67,742,055         6.72%            4,552,266        6,774,204     2,221,938
P00052              67,560,548         7.44%            5,026,504        6,719,454     1,692,950
Totals           $203,062,037                         $13,983,133      $20,269,602    $6,286,469



DD Form 1547 Provided Inadequate Support of Profit
Determination
        SMC contracting personnel used DD Form 1547, which was generated by the
weighted guidelines application, as sole support for the profit determination for 11 of the
18 UCAs that required the use of the weighted guidelines method to develop the profit
objective. However, the form did not provide sufficient detail as sole support that the
undefinitized period was a consideration in profit determination. The weighted guideline
tool took into consideration incurred cost, the undefinitized period, and the remaining
portion of the contract to develop a profit objective. The contracting officer entered the
incurred and projected costs into the application and assigned values to the contract risk
factors. The application then produced a composite contract type risk factor. The
weighted guidelines application then generated a total profit objective for the contract
based on the factors entered by the contracting officer and the composite contract type
risk factor generated by the application. The contracting officer should have used the
profit objective as the Government’s basis for negotiations with the contractor.

However, DD Form 1547 did not display all of the factors entered by the contracting
officer. The form identified a profit factor but did not state the degree to which costs
were incurred before definitization, the risk factors assigned to the incurred cost and
projected cost, or the resulting impact on the contractor’s profit or fee. As a result, it was
not possible for an independent party to determine how the contracting officer considered
the contractor’s possible reduced cost risk unless the contracting officer documented the
risk assessment in the contract file. Contracting personnel should document the costs
incurred before definitization and their impact on profit determination in the PNM. Both




                                               20

the GAO and DoD IG recommended in previous reports that DoD revise the DFARS to
include instructions on how to perform an assessment of any reduced cost risk on profit
or fee during the undefinitized period.5

Inadequate Documentation of Profit Determination in the PNM
        SMC contracting personnel did not adequately document the profit determination
in the PNM for 11 of the 18 UCAs that we reviewed. SMC personnel did not include the
costs incurred before definitization for 5 of the 11 UCAs. Of the remaining 6 UCAs in
which the PNMs included the cost incurred before definitization, we were unable to
determine the effect that the incurred costs had on the contractor’s profit because the
profit determination was only supported by the DD Form 1547. The DD Form 1547, as
the sole documentation for the profit determination, did not provide sufficient detail for
us to determine the effect of the incurred costs on profit. DFARS 215.404-71-3 requires
contracting officers to assess the extent to which costs have been incurred prior to
definitization, and to regard the contract type risk to be in the low end of the designated
range when costs have been incurred prior to definitization. The contract type risk factor
focuses on the degree of cost risk accepted by the contractor under varying contract
types. Contracting officers must assign a value for contract type risk and input the value
into box 24 of the DD Form 1547 when using the weighted guidelines tool. Although the
contracting officers may have documented the cost incurred during the undefinitized
period and used the weighted guidelines application to develop a profit objective, they
did not consistently document the resulting effect on the contractor’s allowable profit.
Without adequate discussion of the contracting officer’s consideration of the cost
incurred, we were unable to determine to what extent the undefinitized period was
reflected in the contractor’s profit. SMC officials should revise the SMC Buyer’s
Handbook, November 19, 2009, to include requirements to document incurred costs, their
effect on the profit/fee analysis, and a discussion about the inputs used for box 24 of the
DD Form 1547.

Adequate and Inadequate Documentation of Profit Determination
in the PNM
        We reviewed the PNM for each of the 18 UCAs that were required to undergo a
weighted guidelines analysis to determine whether the contracting officer’s consideration
of the undefinitized period and its effect on the contractor’s profit was adequately
documented. The following two UCAs are examples of adequate and inadequate
documentation of profit determination.

Contract FA8819-08-C-0006, Modification P00002
               SMC contracting personnel prepared the PNM for contract FA8819-08-C-
0006, modification P00002 that adequately documented the contracting officer’s
consideration of the undefinitized period and its effect on the contractor’s profit. We


5
 GAO Report No. GAO-10-299, “DoD Has Enhanced Insight into Undefinitized Contract Action Use, but
Management at Local Commands Needs Improvements,” January 28, 2010, and DoD IG Report No. D-
2004-112, “Undefinitized Contractual Actions,” August 30, 2004.


                                               21

considered the documentation to be adequate because contracting personnel properly
explained the amount of costs incurred before definitization and their effect on the
contract type risk used in the weighted guidelines application, the reasons the assigned
risk factors were either normal or deviated from the normal values, and the profit
objective generated based on the incurred cost and risk factors. Specifically, SMC
contracting personnel stated in the PNM that the contract type risk used in the weighted
guidelines application was reduced because two-thirds of the actual cost had been
incurred before definitization, and the technical and management risk factors assigned
were normal. Also, because the Government’s profit objective was sustained in
negotiations, it can clearly be seen how the undefinitized period was reflected in the
contractor’s profit.

Contract FA8816-06-C-0004, Modification P00009
                 SMC contracting personnel prepared the PNM for contract FA8816-06-C-
0004, modification P00009 that did not adequately document the contracting officer’s
consideration of the undefinitized period and its effect on the contractor’s profit. We
considered the documentation to be inadequate for several reasons. First, contracting
personnel included a statement that the Government used the weighted guidelines, but
they did not provide details about the amount of costs incurred before definitization or
provide any indication of costs incurred. Also, SMC contracting personnel did not state
the effect of the incurred cost and the use of the weighted guidelines application on the
contractor’s profit in the PNM. Finally, SMC contracting personnel stated the objective
rate that was generated by using the weighted guidelines tool in the PNM, but also stated
that a higher rate was used. Because SMC contracting personnel did not use the objective
rate, it cannot clearly be seen how the undefinitized period was reflected in the
contractor’s profit. SMC management should revise the SMC Buyer’s Handbook to
include instructions on documenting in the profit section of the PNM how the
undefinitized period impacts the contractor’s profit or fee and the inputs made to the
contract type risk of the DD Form 1547.

Revised Requirement
       In June 2007, GAO issued Report No. GAO-07-559, “Defense Contracting: Use
of Undefinitized Contract Actions Understated and Definitization Time Frames Often
Not Met,” which criticized DoD for inadequately documenting the impact of costs
incurred before definitization on profit and fee rates. In response to the report, the
Director, Defense Procurement, Acquisition Policy, and Strategic Sourcing, issued the
August 2008 DPAP memorandum that provided guidance to contracting officers
regarding the requirements contained in DFARS 215.404-71, which advocates the
lowering of contract type risk based on the amount of costs incurred before definitization.
The memorandum required contracting officers to document the risk assessment in the
contract file. See Appendix B for a copy of the memorandum. Twelve of the 18 UCAs
that we reviewed for profit determination were definitized after the August 2008 DPAP
memorandum. Seven of the 12 UCAs were in compliance with the August 2008 DPAP
memorandum requirement to document the risk assessment in the contract file, and
5 were not in compliance.



                                            22

SMC Compliance With Obligation Limitations
SMC contracting personnel exceeded the limitations for obligating funds on UCAs for
3 of the 27 UCAs. Contracting officers are limited by 10 U.S.C. § 2326 in the amount of
funds they may obligate on a UCA to 50 percent of the not-to-exceed value before receipt
of a qualifying proposal and to 75 percent after receipt of a qualifying proposal.
Exceeding the allowable obligation thresholds puts the Government in a poor position to
negotiate a contract at definitization because contractors are less inclined to submit a
qualifying proposal when there is adequate funding available to continue the work.

Section 2326(b)(2) and (3), title 10, United States Code, states:
               (2) Except as provided in paragraph (3), the contracting officer for an
               undefinitized contractual action may not obligate with respect to such
               contractual action an amount that is equal to more than 50 percent of
               the negotiated overall ceiling price until the contractual terms,
               specifications, and price are definitized for such contractual action.

               (3) If a contractor submits a qualifying proposal (as defined in
               subsection (g)) to definitize an undefinitized contractual action before
               an amount equal to more than 50 percent of the negotiated overall
               ceiling price is obligated on such action, the contracting officer for such
               action may not obligate with respect to such contractual action an
               amount that is equal to more than 75 percent of the negotiated overall
               ceiling price until the contractual terms, specifications, and price are
               definitized for such contractual action.

SMC contracting personnel obligated funds in excess of allowable amounts for three
UCAs because they miscalculated the allowable obligation amount, they reduced the not-
to-exceed value without decreasing the amount obligated, and they treated a UCA as a
change order. SMC contracting personnel inappropriately obligated 75.6 percent of the
not-to-exceed value before definitization for contract FA8808-06-C-0001. Contracting
personnel’s changes to the not-to-exceed value resulted in the obligation value exceeding
the allowable thresholds.

SMC contracting personnel inappropriately obligated more than 75 percent of the not-to-
exceed value before definitizing the UCA for contract FA8819-08-C-0006. SMC
contracting personnel issued modification P00002 to extend the contract period of
performance. SMC contracting personnel decreased the not-to-exceed value without a
corresponding decrease in the obligation amount, which raised the obligated value to
86 percent of the not-to-exceed value. Neither of these instances was indicative of a
SMC-wide problem with the obligation of funding for UCAs; therefore, we are not
making a recommendation on this issue. SMC contracting personnel obligated
100 percent of the not-to-exceed value at issuance and before receipt of a qualifying
proposal for contract FA8816-06-C-0004. Contracting personnel stated that the UCA
was a change order and not a UCA and was not subject to the funding limitation. The
contract documentation for contract FA8816-06-C-0004 was conflicting as to whether the
action was a UCA or a change order. See the Change Order section on page 28 of the
report for a discussion of the treatment of UCAs and change orders at SMC.


                                                  23

Obligating Funds as Needed
SMC contracting personnel obligated the maximum permissible funding before
definitization for 21 of 27 UCAs. The August 2008 DPAP memorandum instructed
contracting officers to assess the contractor’s spend plan for the undefinitized period and
obligate funding in an amount consistent with the contractor’s requirements for the
undefinitized period. Further, contracting officers should avoid obligating the maximum
allowable funding amount at the time of UCA award to discourage extended periods of
performance before definitization. Contracting officers funding UCAs according to
anticipated contractor expenditures can aid in timely contract definitization.
SMC contracting personnel had not taken steps to comply with the August 2008 DPAP
memorandum requirement to avoid obligating the maximum permissible funding at
contract award. Both before and after DPAP issued the memorandum, SMC contracting
personnel commonly funded UCAs to the maximum amount allowable. SMC contracting
personnel obligated funds for more than the maximum amount allowable for 12 of the
16 UCAs from our nonstatistical judgment sample that were issued before the
August 2008 DPAP memorandum and for 9 of the 11 UCAs that were issued after the
DPAP memorandum. The contracting officer can strengthen the Government’s
negotiation position by limiting funding to incremental amounts to help obtain a timely
definitization. SMC contracting personnel should take steps to comply with the
August 2008 DPAP memorandum requirement by obligating funding according to the
contractor’s requirements rather than to the maximum amount permissible. The Figure
shows the number of UCAs obligated at the maximum amounts at issuance before and
after the August 2008 DPAP memorandum.

Figure. UCAs Obligated at Maximum Allowable Amounts Before Definitization
        Before and After the August 2008 DPAP Memorandum


                        14
       Number of UCAs




                                                       12
                        12

                        10                                                                      9

                          8

                          6
                                         4
                          4
                                                                                  2
                          2

                          0
                                    Before DPAP memorandum                   After DPAP memorandum

                        Funded less than the maximum amount allowable Funded to the maximum amount allowable




                                                               24

Justification for Issuing UCAs
SMC personnel prepared requests to issue UCAs that included justifications that
complied with DFARS requirements for all 27 UCAs. DFARS 217.7403, “Policy,”
limits the use of a UCA to situations when negotiating a definitive contract is not possible
and the Government’s interest demands contract performance begin immediately. SMC
personnel primarily cited missed launch dates or delayed payload delivery dates as
adverse impacts if SMC personnel did not issue a UCA. They also cited a loss of
experienced personnel and project continuity as potential adverse impacts. SMC
contracting personnel identified several reasons for the need for urgency. We identified,
as illustrated in Table 7, the reasons SMC used UCAs.

                          Table 7. Reasons for SMC UCA Use
   Reasons for UCA Issuance             Number       Not-to-Exceed      Percent of Total
                                        of UCAs       Dollar Value       Not-to-Exceed
Multiple, Inseparable Issues                5        $2,272,600,000          47.68
Formation of Joint Venture                  4         1,730,855,850          36.31
Budget Reduction Issues                     3           262,195,269           5.50
Delayed Acquisition Decision                4           243,000,000           5.10
Operational Need/Maintain                   8           162,496,377           3.41
Production and Development
Proposal Problems                          2             59,958,249           1.26
Prudent Business Decision                   1            35,300,000           0.74
Total                                      27        $4,766,405,745          100.00

SMC contracting personnel adequately justified issuing a UCA for all 27 UCAs and
limited the usage to circumstances in which the negotiation of a definitive contract was
not possible within the time available to meet Air Force requirements.

   	 Multiple, Inseparable Issues – SMC personnel issued five UCAs with multiple,
      inseparable issues that included funding gaps between contractor proposals and
      available budget, problems with the development of earlier portions of the
      acquisition, and delayed acquisition decisions by the Under Secretary of Defense
      for Acquisition, Technology, and Logistics.

   	 Formation of Joint Venture – SMC contracting personnel issued four UCAs
      related to the formation of a joint venture by the two principal contractors for the
      EELV program. UCAs were necessary because of funding gaps between
      contractor proposals and available budget, DCAA reviews of accounting
      procedures and proposal audits, lack of established forward pricing rate
      agreements, and lack of independent pricing rates for the joint venture.

   	 Budget Reduction Issues – SMC contracting personnel issued three UCAs
      because of funding uncertainties. In one instance, budget uncertainties delayed


                                            25

       the program schedule, and contracting personnel issued a UCA to avoid further
       program delays. In another, the usage of a UCA was planned upon the receipt of
       funding. In the third instance, a UCA was used to protect mission lead times after
       personnel from the National Reconnaissance Office withdrew funding to re-
       evaluate mission requirements.

   	 Delayed Acquisition Decision – SMC contracting personnel issued four UCAs
      because of delayed acquisition decisions. The Defense Advisory Working Group
      delayed the source selection decision on three occasions for the Transformational
      Communications Satellite program. The Under Secretary of the Air Force
      directed efforts to continue until the Defense Advisory Working Group completed
      their assessment. In another instance, SMC contracting personnel issued a 9-
      month bridge UCA to avoid work stoppage of advisory and assistance services
      because the approval process for the justification for other than full-and-open
      competition was not completed in time to award a definitive contract.

   	 Operational Need/Maintain Production and Development – SMC contracting
      personnel issued eight UCAs to fill urgent operational needs or maintain
      production and development. Urgent needs included production to support
      launches and launch capability. Maintaining production included UCAs used to
      continue efforts that impacted the production of critical components to support
      launches.

   	 Proposal Problems – SMC contracting personnel issued two UCAs because of
      proposal problems. One contractor provided proposals that were incorrectly
      referenced to their pre-proposal basis-of-estimate instead of the statement of
      work, and another contractor submitted inadequate and inconsistent proposals that
      required multiple updates and made negotiating a definitive price impossible.

   	 Prudent Business Decision – SMC contracting personnel issued one UCA as a
      prudent business decision in which they removed an administrative prime
      contractor and awarded a UCA to the subcontractor completing the majority of
      the efforts on the contract. SMC contracting personnel issued the UCA to
      maintain launch efforts.

The Assistant Secretary of the Air Force for Acquisition, in a December 2006
memorandum, directed that contracting personnel should not use UCAs as a normal
means of conducting business. The memorandum further directed that the use of UCAs
should be limited to circumstances in which negotiation of a definitive contract is not
possible to meet Air Force requirements when performance must begin immediately.




                                           26

Documentation of a Fair and Reasonable Price
SMC contracting personnel adequately documented their determination of price
reasonableness for 26 of the UCAs6 except for not adequately documenting the
determination of profit as discussed in this report. In addition, when determining price
reasonableness for one UCA, SMC contracting personnel used a DCAA audit report that
the DoD IG later recommended DCAA rescind because it could not be relied upon as a
basis to negotiate fair and reasonable prices.

FAR 15.403-3, “Requiring information other than cost or pricing data,” requires that the
contracting officer obtain information that is adequate for evaluating price
reasonableness. Further, FAR 15.406-3, “Documenting the negotiation,” states that the
contracting officer must document fair and reasonable price in the contract file. We
reviewed the contract files for 26 of the UCAs and determined that the files contained
adequate documentation, such as PNMs, business clearance memoranda, certificates of
current cost or pricing data, and related audit reports to document contracting officers’
determination of price reasonableness.

SMC contracting personnel adequately documented their determination of fair and
reasonable prices. FAR 15.404-4, “Profit,” states that the contracting officer’s signature
on the PNM documents the contracting officer’s determination that the statutory price or
fee limitations have not been exceeded. Contracting officers signed the PNM for 26 of
the UCAs. According to the PNMs, contracting officers evaluated contractor proposals
to determine that negotiated amounts were fair and reasonable. Table 8 shows the types
of support contracting officers relied on when determining price reasonableness.

     Table 8. Documentation to Support Determination of Price Reasonableness

        Contractor Proposal Evaluated Against                      Number of PNMs That
                                                                    Identified Evaluation
DCAA, Defense Contract Management Agency, and/or                               24
other audit agency audits
Technical evaluations                                                          25
Forward pricing rate agreements or forward pricing rate                        23
recommendations

SMC contracting personnel referenced compliance with FAR 15.403-4, “Requiring cost
or pricing data,” which outlines requirements for obtaining current cost or pricing data in
the PNMs for 26 of the UCAs and the PNMs for 23 UCAs stated that the contractor
provided a certificate of current cost or pricing data.




6
 One UCA was definitized on September 13, 2010, but a completed price negotiation memorandum was
not provided to the audit team so a full analysis could not be completed.


                                                27

SMC contracting personnel used a DCAA report as partial support for the determination
of price reasonableness for one UCA that the DoD IG later recommended be rescinded.
DoD IG Report No. D-2009-6-009, “Defense Contract Audit Agency Audit Work
Deficiencies and Abusive Work Environment Identified by the Government
Accountability Office,” August 31, 2009, recommended that DCAA rescind an audit
report on a proposal received from one of the EELV providers. The DoD IG concluded
that the report could not be relied upon by acquisition officials as a basis to negotiate fair
and reasonable prices. The DoD IG determined that DCAA allowed the EELV provider
to use lot accounting, which is not compliant with Cost Accounting Standards, and also
allowed the inclusion of costs related to program management and hardware support
efforts that were incurred before the initial contract issuance. Both GAO and the DoD IG
questioned a contract line item for program management and hardware support costs on
contract FA8816-06-C-0001, modification P00011. Although SMC contracting
personnel adequately documented price reasonableness, they relied on a flawed DCAA
audit report that the DoD IG identified as inadequate for determining fair and reasonable
prices.

Change Orders
SMC contracting personnel prepared contract documentation that either inappropriately
identified change orders as UCAs or was ambiguous as to whether the action was a
change order or a UCA for 10 UCAs. In addition, SMC contracting personnel referred to
change orders as a type of UCA. The SMC Contracting Directive, March 29, 2007,
required contracting personnel to treat change orders in the same manner as UCAs. As a
result, SMC management may have difficulty accurately identifying and monitoring
UCA and change order usage. However, differentiating between UCAs and change
orders may soon become a moot point because a recent DFARS case is expected to result
in new regulations to require contracting and program officials to apply the same
restrictions to unpriced change orders that are applicable to UCAs.

UCAs and Change Orders
       The FAR Subpart 43.2 defines a change order as a clause within the contract that
permits the contracting officer to make unilateral changes, in designated areas, within the
general scope of the contract. UCAs are agreements that allow a contractor to begin
work and incur costs before the Government and the contractor have reached a final
agreement on contract terms, specifications, or price.

SMC contracting personnel issue change orders with attributes of and references to the
usage of a UCA because the SMC Contracting Directive required contracting personnel
to treat unpriced change orders as UCAs. Additionally, SMC contracting personnel
issued change orders that contained attributes of UCAs such as a not-to-exceed price, a
schedule for definitization, and approval for usage by SMC management.
DFARS 217.74 exempts change orders from the restrictions applicable to UCAs but
requires that contracting officers adhere to the guidance to the maximum extent
practicable when using change orders. Table 9 highlights the differences between UCAs
and change orders.



                                             28

                  Table 9. Differences Between UCAs and Change Orders

                 Attribute                                     UCA                    Change Order
Scope of the action                                Out of Scope (new work)             Within Scope
Bilateral agreement                                          Yes                           No*
Issued pursuant to:                                 10 U.S.C. § 2304(c)(2)             FAR 52.243
Obligation limitations                                          Yes                          No
Request for equitable adjustment                                No                           Yes
*To obtain the contractor’s agreement on a definitization schedule and limitation of Government liability,
some change orders are entered into bilaterally.


Impact of SMC Treatment of Change Orders
        SMC management implemented procedures to improve the management and
oversight of unpriced change orders. As a result, SMC contracting personnel issued
change orders with elements of and references to the usage of a UCA. Additionally,
SMC contracting personnel often referenced change orders as a type of UCA. SMC
personnel provided a list of UCAs issued by SMC that included 10 actions that either
omitted UCAs or did not clearly identify the actions as UCAs or change orders. SMC
contracting personnel could have exceeded allowable obligation limitations by issuing a
change order when the action should have been issued as a UCA. Additionally, the
interchange of terms and references to UCAs when using change orders could create
internal control, oversight, and tracking problems.

Restrictions for Change Orders
       Defense Federal Acquisition Regulation Supplement Case 2008-D034 amended
DFARS 217.74 to make requirements for DoD management and oversight of unpriced
change orders consistent with the management and oversight requirements that apply to
other UCAs. The audit team experienced challenges differentiating change orders from
UCAs because guidance issued by SMC resulted in ambiguities in contract
documentation. The amendment to DFARS 217.74 will make the differentiation
unnecessary for future UCAs, because change orders will now be treated in the same
manner as UCAs.

Proactive Measures Taken
Officials at higher levels within DoD have taken positive steps to ensure not only
compliance with restrictions on the use of UCAs, but also to ensure that DoD spending is
not wasteful. The Air Force Deputy Assistant Secretary (Contracting) Assistant
Secretary (Acquisition) issued Policy Memo 10-C-03, “Undefinitized Contract Actions,”
on March 17, 2010, in response to the findings contained in GAO Report No. GAO-10-
299, “Defense Contracting: DoD Has Enhanced Insight into Undefinitized Contract
Action Use, but Management at Local Commands Needs Improvement.” The policy
memorandum reinforces the requirements that contracting officers should only obligate


                                                    29

funds consistent with the contractor’s spend plan for the undefinitized period, work with
contractors and DCAA to ensure that contractor proposals are adequate to support
definitization, consider reducing or suspending progress payments when the contractor
does not submit a timely qualifying proposal or does not otherwise support the
established definitization schedule, and use the weighted guidelines tool throughout the
negotiation process to make adjustments to the Air Force profit objective for costs
incurred. The policy memorandum also established a management review and reporting
requirement for any UCA that is more than 14 days behind schedule at any point in the
definitization process. Additionally, the policy memorandum established a requirement
that the Senior Contracting Official or the Senior Center Contracting Official and any
members of the definitization team brief the appropriate Headquarters Air Force staff on
the status of any UCA not definitized within 180-days of issuance. See Appendix F for a
copy of the memorandum.

The SMC Director of Contracting stated in an October 22, 2010, memorandum that SMC
considers proper management of UCAs of the utmost importance. SMC has executed a
number of initiatives to definitize UCAs in a timely manner and reduce the number of
UCAs in its portfolio. Since February 2010, SMC has reduced the number of open UCAs
from 32 to 2. In addition, as of April 2010, the SMC Director of Contracting must
authorize all UCAs.

Conclusion
SMC contracting personnel properly obtained the appropriate authorization to issue
UCAs, adhered to the limitations on the obligation of funds with three exceptions, and
adequately documented their determination of price reasonableness. However, we
identified 45 instances in which SMC personnel did not fully comply with UCA
restrictions for 26 of 27 UCAs that we reviewed. SMC personnel:
     prepared a request to issue a UCA that provided insufficient detail to support the
         UCA request,
     did not definitize UCAs in a timely manner,
     did not reflect the reduced cost risk to the contractor during the undefinitized
         period in the contractor’s profit,
     did not adequately document their consideration of contractor’s reduced risk when
         determining contractor profit,
     did not obligate funds within allowable limits, and
     did not obligate funds according to contractor spending requirements.
As a result, the SMC position in the price negotiation and contract award may have been
weakened, and delays in definitizing contracts may have increased the cost risk to the
Government. Additionally, SMC personnel’s failure to reflect the contractor’s reduced
risk during the undefinitized period in negotiated profit may have resulted in the
Government paying more profit than was necessary. Incorporating the following
recommendations should reduce the number of noncompliant actions.




                                           30

Recommendations, Management Comments, and Our
Response
We recommend that the Director of Contracting, Air Force Space and Missile
Systems Center:

       1. Develop a metric for measuring contractor responsiveness in preparing
qualifying proposals.

Air Force Space and Missile Systems Center Comments
The Director of Contracting, Air Force Space and Missile Systems Center agreed and
stated that contractor responsiveness is being addressed in Board of Director Reviews,
the Contractor Performance Assessment Reporting System reports, and Senior Executive
periodic meetings and conferences. The Director of Contracting, Air Force Space and
Missile Systems Center, also stated that proposal timeliness has been a major topic at the
Program Executive Officer for Space quarterly benchmarking (Board of Director)
sessions with Vice President-level Space and Missile Systems Center prime contractor
personnel. The Director of Contracting, Air Force Space and Missile Systems Center,
further commented that the proposal quality is considered in the preparation of all
Contractor Performance Assessment Reporting System reports. She also commented that
Air Force Space and Missile System Center Contracting personnel report on
undefinitized contractual action metrics to the Air Force Deputy Assistant Secretary
(Contracting) Assistant Secretary (Acquisition) twice a month. The Director of
Contracting, Air Force Space and Missile Systems Center, stated the need for an
additional responsiveness metric will be evaluated within 120 days after this report
is issued.

Our Response
        The Director of Contracting, Air Force Space and Missile Systems Center,
comments are responsive. Air Force Space and Missile Systems Center officials have
taken significant actions to address the contractor responsiveness issue. In addition to the
actions presented by the Director of Contracting, Air Force Space and Missile Center, the
Air Force Deputy Assistant Secretary (Contracting) Assistant Secretary (Acquisition)
issued Policy Memorandum 10-C-03, “Undefinitized Contract Actions,” on March 17,
2010, which provided additional guidance that states that contracting officers must
require contractor proposals to be valid for the time required to conduct the evaluation
and audit. Because of these actions, Air Force Space and Missile Systems Center’s plan
to evaluate the need for an additional metric is sufficient. No additional comments are
required.

       2. Require that Air Force Space and Missile Systems Center contracting
personnel minimize the use of undefinitized contractual actions by better
coordinating with customers to identify changes in Government requirements in a
timely manner and document changes in the acquisition narrative.




                                            31

Air Force Space and Missile Systems Center Comments
The Director of Contracting, Air Force Space and Missile Systems Center, agreed and
stated that Air Force Space and Missile Center officials have taken actions to minimize
the use of UCAs. She stated that those actions include issuing a memorandum rescinding
approval for Space and Missile Systems Center Wing/Group Chiefs of the Contracting Office
to issue UCAs; implementing the March 24, 2010, Office of the Assistant Secretary of the
Air Force Policy Memorandum 10-C-04, “Timely Undefinitized Contract Action (UCA)
Definitization/Negotiated Awards-Contractor Responsiveness,” and communicating
extensively with industry senior contracting representatives on the need to improve proposal
timeliness, increase quality, and reduce UCA reliance. The Director of Contracting, Air
Force Space and Missile Center, further stated that no UCAs have been issued since
rescinding UCA approval authority from the Space and Missile Systems Center Wing/Group
Chiefs of the Contracting Office.

Our Response
     The Director of Contracting, Air Force Space and Missile Systems Center,
comments are responsive. No additional comments are required.

      3. Update the Space and Missile Systems Center Buyer’s Handbook with
emphasis on the importance of definitizing undefinitized contractual actions within
180-day time frames.

Air Force Space and Missile Systems Center Comments
The Director of Contracting, Air Force Space and Missile Systems Center, agreed and
stated that the recommendation would be implemented within 120 days after this report is
issued.

Our Response
     The Director of Contracting’s Air Force Space and Missile Systems Center’s
comments are responsive. No additional comments are required.

        4. Update the Space and Missile Systems Center Buyer’s Handbook with
guidance on how contracting personnel can document their consideration of
reduced risk on the contractor’s profit or fee when definitizing undefinitized
contractual actions. Additionally, the guidance should include instructions on how
contracting personnel should develop and document the Government’s objective for
profit or fee when definitizing an undefinitized contractual action.

Air Force Space and Missile Systems Center Comments
The Director of Contracting, Air Force Space and Missile Systems Center, requested that
the recommendation be revised; specifically to “update the Air Force Space and Missile
Systems Center pricing guidance and training,” instead of to “update the Space and
Missile Systems Center Buyer’s Handbook.” She also stated the Buyer’s Handbook
would reference the pricing guidance for pricing-related issues. The Director of
Contracting, Space and Missile Systems Center, stated the recommendation would be
implemented within 120 days after this report is issued.


                                            32

Our Response
       The Director of Contracting, Air Force Space and Missile Systems Center,
comments are responsive. The Director of Contracting, Air Force Space and Missile
Systems Center, recommendation to update the Air Force Space and Missile Systems
Center pricing guidance and training, and to reference the Space and Missile Systems
Center Buyer’s Handbook to the revised pricing guidance, meets the intent of the
recommendation and does not require a revision to the recommendation. No additional
comments are required.

       5. Update the Space and Missile Systems Center Buyer’s Handbook with
requirements for contracting personnel to include in the profit section of the price
negotiation memorandum: incurred cost, contract type risk used for both the
undefinitized period and remainder of the contract, and the impact that the use of
the undefinitized contractual action had on the contractor’s profit or fee. In
addition, include instructions for contracting personnel to include and discuss
inputs made to the contract type risk of DD Form 1547, “Record of Weighted
Guidelines Application.”

Air Force Space and Missile Systems Center Comments
The Director of Contracting, Air Force Space and Missile Systems Center, requested that
the recommendation be revised; specifically to “update the Air Force Space and Missile
Systems Center pricing guidance and training,” instead of to “update the Space and
Missile Systems Center Buyer’s Handbook.” She also stated the Buyer’s Handbook
would reference the pricing guidance for pricing-related issues. The Director of
Contracting, Space and Missile Systems Center, stated the recommendation would be
implemented within 120 days after this report is issued.

Our Response
       The Director of Contracting, Air Force Space and Missile Systems Center,
comments are responsive. The Director of Contracting, Air Force Space and Missile
Systems Center, recommendation to update the Air Force Space and Missile Systems
Center pricing guidance and training, and to reference the Space and Missile Systems
Center Buyer’s Handbook to the revised pricing guidance, meets the intent of the
recommendation and does not require a revision to the recommendation. No additional
comments are required.

       6. Require contracting personnel to refrain from obligating funds to the
maximum amount allowable for all undefinitized contractual actions so that both
users and contractors have incentive to coordinate early and often about proposals,
contractual needs, and funding.

Air Force Space and Missile Systems Center Comments
The Director of Contracting, Air Force Space and Missile Systems Center, agreed and
stated that Air Force Space and Missile Center personnel would comply with the
March 17, 2010, Secretary of the Air Force for Acquisition Contracting



                                          33

Policy Memorandum 10-C-03, and Defense Federal Acquisition Regulation
Supplement 217.7404. She also stated that the recommendation would be implemented
within 120 days after this report is issued.

Our Response
        The Director of Contracting, Space and Missile Systems Center’s, comments are
responsive, and no additional comments are required. The Air Force Deputy Assistant
Secretary (Contracting) Assistant Secretary (Acquisition) issued Policy Memo-
randum 10-C-03 on March 17, 2010, which reinforces the requirements that contracting
officers should only obligate funds consistent with the contractor’s spend plan for the
undefinitized period.




                                           34

Appendix A. Scope and Methodology
We conducted this performance audit from October 2009 through September 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. We initially planned to review SMC’s use of
UCAs as part of a tri-Service audit beginning in July 2009. In September 2009, we
decided to conduct a separate audit for each of the six contracting activities that we had
initially identified to be included in the tri-Service audit.

GAO was conducting a review on the use of UCAs when our audit began. We limited
our site selection to contracting offices that were not included in the GAO engagement.

Universe and Sample Information
We used the FPDS-NG database to identify a universe of UCAs to review. We identified
action obligations coded as letter contracts that the Air Force issued during calendar years
2004 through 2008. We classified the action obligations by contract number and
contracting office code to identify the contracting offices responsible for the 15 largest
aggregate UCA dollar values. We excluded two Air Force contracting organizations
from consideration because GAO had an ongoing engagement with similar objectives at
the sites. We identified SMC and the Air Force Electronic Systems Center for review.
We then conducted another search in FPDS-NG to identify additional UCAs SMC
contracting personnel issued from the beginning of FY 2004 to June 22, 2009. The
FPDS-NG universe consisted of 522 SMC actions, valued at $6,131,086,990, as of
June 22, 2009. From the UCAs issued by SMC, we selected a nonstatistical judgmental
sample of 12 letter contracts to review. In addition, SMC personnel provided a list of all
UCAs issued by SMC contracting personnel from FY 2004 through September 18, 2009,
that had a total not-to-exceed value of $5,794,070,917.7 However, the list of UCAs
provided by SMC contained UCAs issued outside the scope of our review and contained
change orders. Based upon the FPDS-NG data and the SMC data, we selected a
nonstatistical judgment sample of 15 contracts that included 27 UCAs for review.

Our audit universe was limited to the contracts identified in FPDS-NG as letter contracts.
Within FPDS-NG, we were unable to distinctively identify three types of UCAs:
“provisioned item orders,” “indefinite-delivery, indefinite-quantity,” and “basic ordering
agreements.” These types of UCAs are identified in a field the user or input staff
modifies and are subject to individual manipulations of the field that makes searching
across the database unreliable. Our final nonstatistical judgmental sample consisted of
27 UCAs: 20 UCAs on 12 letter contracts and 7 UCAs issued as modifications to
3 definitized contracts. See Appendix C for a list of UCAs that we reviewed.


7
  The list of UCAs provided by SMC personnel also included unpriced change orders, which we excluded
from our nonstatistical judgmental sample.


                                                 35

Review of Documentation and Interviews
We downloaded and reviewed selected contracts and modifications from the Electronic
Document Access database and obtained and reviewed contract documentation from
SMC. We then combined all of the data to perform an analysis to determine compliance
with 10 U.S.C. § 2326. We determined through analyzing documentation and attending
meetings whether the contracts underwent price reasonableness determinations before
their definitization. We also determined whether SMC personnel complied with
requirements from the August 29, 2008, DPAP memorandum that contracting officers
should avoid obligating the maximum permissible funding at the time of UCA award.

We interviewed contracting, procurement, and automation officials about awarding and
definitizing letter contracts and related management control programs at the:
     Office of Defense Procurement and Acquisition Policy;
     Department of the Air Force, Policy and Implementation;
     Air Force Space Command; and
     Air Force Space and Missile Systems Center.

We reviewed documentation maintained by SMC contracting personnel to support UCAs
awarded or definitized from FY 2004 through September 18, 2009. We reviewed:
    UCA request and approval documentation,
    justification and approvals,
    statements of work,
    contract modifications,
    price negotiation memoranda,
    business clearance memoranda, and
    DCAA audit reports.

We evaluated documentation maintained by SMC against applicable criteria including:

   	 Statutes and Public Laws: Public Law 99-591, “Continuing Appropriations for
      Fiscal Year 1987”; Public Law 110-181, “National Defense Authorization Act for
      Fiscal Year 2008”; 10 U.S.C. § 2304, “Contracts: Competition Requirements”;
      10 U.S.C. § 2326, “Undefinitized contractual actions: restrictions”;

   	 Federal Acquisition Regulation Requirements: FAR Subpart 6.3, “Other than Full
      and Open Competition”; FAR Subpart 15.4, “Contract Pricing”;
      FAR Subpart 16.6, “Time-and-Materials, Labor-Hour, and Letter Contracts”;
      FAR Subpart 52.2, “Text of Provisions and Clauses”;

   	 Defense Federal Acquisition Regulation Supplement: DFARS 215.404, “Proposal
      Analysis”; DFARS 216.6, “Time-and-Materials, Labor-Hour, and Letter
      Contracts”; DFARS 217.74, “Undefinitized Contract Actions”; DFARS case
      2008-D034, “Management of Unpriced Change Orders”; DFARS case 2007-
      D011, “Letter Contract Definitization Schedule”;



                                         36

   	 Air Force Federal Acquisition Regulation Supplement: Air Force Federal
      Acquisition Regulation Supplement Subpart 5316.6, “Time-and-Materials, Labor
      Hour, and Letter Contracts”; Air Force Federal Acquisition Regulation
      Supplement Subpart 5317.74, “Undefinitized Contract Actions”; Air Force
      Federal Acquisition Regulation Supplement Subpart 5301.90, “Clearance”;

   	 Memoranda: Office of the Under Secretary of Defense for Acquisition,
      Technology, and Logistics memorandum, “Management Oversight of
      Undefinitized Contract Actions,” August 29, 2008; the Department of the Air
      Force Office of the Assistant Secretary Contract Policy Memo 08-C-11,
      “Mandatory Procedures for Undefinitized Contract Actions (UCAs),” October 14,
      2008; Department of the Air Force, Deputy Assistant Secretary (Contracting),
      Assistant Secretary (Acquisition) Policy Memo 08-C-13, “Head of Contracting
      Activity (HCA) Designation and General Contracting Authority,” November 25,
      2008; and

   	 Local Guidance: Commander, SMC, memorandum, “Redelegation of Specific
      Contracting Authorities,” January 9, 2003; Air Force Program Executive Officer
      for Space memorandum, “Re-delegation of Specific Contracting Authorities,”
      September 23, 2005; Air Force Program Executive Officer for Space
      memorandum, “Re-delegation of Specific Contracting Authorities,” February 12,
      2006; SMC Contracting Memorandum, “Re-delegation of Head of Contracting
      Activity (HCA) Responsibilities,” December 22, 2008; SMC Contracting
      Directive, March 29, 2007; SMC Buyer’s Handbook, November 19, 2009.

Use of Computer-Processed Data
We relied on computer-processed data from FDPS-NG to determine the contracting
organizations to visit and to perform the audit nonstatistical judgmental sample selection.
We also used Electronic Document Access to obtain contract documentation. The data
were not a basis for our conclusions or finding. To assess the accuracy of computer-
processed data, we verified the FPDS-NG and Electronic Document Access data against
official records at visited contracting activities. We determined that data obtained
through FPDS-NG and Electronic Document Access were sufficiently reliable to
accomplish our audit objectives when compared with contract records.

Use of Technical Assistance
We met with personnel from the DoD IG Quantitative Methods and Analysis Division
and determined that we would use FPDS-NG data to select a nonstatistical judgmental
sample of contracting activities and then we would use FPDS-NG data in combination
with contract data provided by the contracting activity to select a nonstatistical
judgmental sample of UCAs to review. Our nonstatistical judgmental sample was limited
to specific contracts, and our results should not be projected across other SMC-issued
contracts nor projected across Air Force-issued contracts.




                                            37

Prior Coverage
During the last 6 years, GAO has issued two reports discussing DoD use of UCAs, two
reports related to space acquisitions, and two reports discussing audit issues within
DCAA. During the last 6 years, the DoD IG has issued three reports discussing DoD use
of UCAs and one report discussing audit issues within DCAA. Unrestricted GAO reports
can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports
can be accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-10-299, “Defense Contracting: DoD Has Enhanced Insight into
Undefinitized Contract Action Use, but Management at Local Commands Needs
Improvements,” January 28, 2010

GAO Report No. GAO-09-468, “DCAA Audits: Widespread Problems with Audit
Quality Require Significant Reform,” September 23, 2009

GAO Report No. GAO-08-1039, “Space Acquisitions: Uncertainties in the Evolved
Expendable Launch Vehicle Program Pose Management and Oversight Challenges,”
September 26, 2008

GAO Report No. GAO-08-857, “DCAA Audits: Allegations That Certain Audits at
Three Locations Did Not Meet Professional Standards Were Substantiated,” July 22,
2008

GAO Report No. GAO-07-559, “Defense Contracting: Use of Undefinitized Contract
Actions Understated and Definitization Time Frames Often Not Met,” June 19, 2007

GAO Report No. GAO-06-908, “Defense Space Activities: Management Actions Are
Needed to Better Identify, Track, and Train Air Force Space Personnel,” September 21,
2006

DoD IG
DoD IG Report No. D-2011-001, “Marine Corps Systems Command’s Use of
Undefinitized Contractual Actions,” October 27, 2010

DoD IG Report No. D-2010-080, “Air Force Electronic Systems Center’s Use of
Undefinitized Contractual Actions,” August 18, 2010

DoD IG Report No. D-2009-6-009, “Defense Contract Audit Agency Audit Work
Deficiencies and Abusive Work Environment Identified by the Government
Accountability Office,” August 31, 2009

DoD IG Report No. D-2004-112, “Undefinitized Contractual Actions,” August 30, 2004




                                          38

Appendix B. August 29, 2008, Office of
Defense Procurement and Acquisition Policy
Memorandum*


                                OFFIC E OF THE U NOER SECRETARY OF DEFENSE




          •
                                                 3000 O[FEflst: Pl!:NTAGON
                                                WASHINGTON. OC :103OHtOOO


                                                                                             AUG 2 9 ro08



             MEMORANDUM FOR COMMANDER, UNITED STATES SPECIAL OPERATIONS
                              COMMAND (AITN: ACQUIS IT ION EXECUTIVE)
                            COMMANDER, UNITED STATES TRANSPORTATION
                              COMMAND (A TIN: ACQUISITION EXECUTIVE)
                                         DEPUTY ASSISTANT SECRETARY OF THE ARMY
                                           (poLICY AND PROCUREMENT), ASA(ALT)
                                         DEPUTY ASSISTANTSOCRETARY Of THE NAVY
                                           (ACQUISITION AND LOOISTICS MA NAGEMENT),
                                           ASN(RDA)
                                         DEPUTY ASSISTANT SECRETARY OF THE AIR FORCE
                                             (CONTRACTING). SAF/AQC
                                         DIRECTORS, DEFENSE AGENCIES
                                         DIRECTORS, DOD FIELD ACTIVITIES

             SUBJECT: Management Oversight ofUndcfinitiud Contract Actions


                    An undefinitized contract action (UCA) is onc for which the C()otract tenns,
             spcdficalians, or price lUll not agreed upon before perfonnance;9 begun. Examples
             include letter conrracrs or undefinilizcd orders issued aga inst basic OTdcring agreements
             OT task/delivery order contracts. A UCA is a valU.flble tool for meeting urgent
             requirements. However, wilhout appropriate tnanagemenlllI1d controls, these instruments
             can lead 10 inereased eost risks for the Department.

                    A recent Government Acoounl.llbility Office (GAO) J'!:view oCDoD UCA, (GAO-
             07-559) identified a need for enhanced oversight. In addition, seetion 809 of Ole FY .
             2008 National Defense Authorization Act requires issuance of detailed instructions to
             ensure oversight ofUCAs. Specific issues include appropriate use of UCAs; timely
             definili7..ation; obligation amounts prior to defin itization; III1d appropriate recogniti on in
             profit or fee of Ole contmclOr's reduced risk during Ole undefinitizcd period.

                    DFARS 217_74, unddinitized Contract Actions, provides DoD policics and
             procedures for the appropriate use ofUCA! and related approval requirements. When
             possible, to disoourage elltended periods ofperfonmmce prior to dcfinitization,
             contracting officers should avoid obligating Ihc mwtimum permissible funding at the time
             ofUCA award. Contracting officers should llSSCSS Ole contractor', spend plan for the
             undcfinitized period, and obl igate funds only in an amount consistent with the




                                                            G

* Attachments to the memorandum have been removed from the report.




                                                                39

contractor's requirements for the undefinitized period. In general, when negotiating
profit or fee, it is appropriate to apply the contract risk factor for cost reimbursement
contracts to the actual cost ofperfonnance prior to definitization (DO Ponn 1547, Record
of Weighted Guidelines Application, Block 24, Contract Type Risk). Contracting
officers should note the guidance al DFARS 215.404-71-3(dX2) which indicates that,
when costs have been incurred prior to dcfinitization, generally the contract type risk
should be regarded to be in the low end oflhe designated range. If a substantial portion
of the costs have been incurred prior to definitization, contracting officers may assign a
value as low as 0 percent, regardless of contract type. Contracting officers must
document the risk assessment in the contract file.

       To provide enhanced management insight and oversight of UCAs, we have
established the attached templates for UCA Management Plans and semi-annual
Consolidated UCA Rcports for UCAs with an estimated value of more than $5 million.
Together. the plans and reports provide information on key aspects ofUCA use and
management. including actions taken to ensure timely and effective definitization. Initial
UCA Management Plans are due no later than 30 days after the date of this policy
memorandum. The initial Consolidated UCA Reports are due on 31 October 2008. Plan
Updates and Consolidated UCA Reports are due semi-annually thereafter.

      Please provide your UCA management point of contact as soon as possible to
Mr. John Tenaglia who can be rcached atjohn.tenaglia@osd.milor703-697-8334.




                                        ~W Dir tor Defense Procurement,
                                             AcquIsition Policy. and
                                             Strategic Sourcing

Attachments:
As stated




                                              40

Appendix C. Undefinitized Contractual Actions Reviewed
 Space and Missile Systems Center’s Use of Undefinitized Contractual Actions for FY 2004–September 18, 2009

 UCA         Contract       Modification    Description of Supplies or Services Procured                    Contract1   Effective      NTE2
Number       Number          Number                                                                           Type        Date        Amount
                                                                                                                                     (millions)
  1      FA8807-05-C-0001                    Parts obsolescence study of existing components of the           CPFF      12/16/2004
                                                                                                                                       $.12
                                              Rubidium Atomic Frequency Standard (RAFS) clock
  2                         P00002             Replacement and/or redesign of obsolete parts and              CPFF      9/14/2005       6.8
                                           implementation of low risk-high yield improvements for the
                                                  subsequent flight requalification of the Global
                                             Positioning System (GPS) Block IIF RAFS based on the
                                                            parts obsolescence study
         FA8816-06-C-0002
  3                         P00055         Continuous support of the Atlas V Launch Capability for the        CPAF      10/1/2007      459.3
                                             EELV program to include maintaining critical skills and
                                              supporting infrastructure and noninfrastructure-related
                                                                        activities
  4                         P00121           Air Force Space Command-2 (AFSPC-2) EELV Launch                  CPAF      11/6/2008       27.5
                                                    Capability Mission Unique Integration and
                                               Mission Unique Non-Flight Hardware, and AFSPC-2
                                                             Geo-Synchronous Orbit Kit
  5                         P00124           Increase the annual launch rate capability on the Atlas V        CPAF      1/16/2009       15.0
                                                         EELV Launch Capability Contract
  6      FA8807-07-C-0005                   Build, install, and test a tertiary L5-frequency research and     CPFF      3/21/2007       6.0
                                                    development demonstration payload on one
                                                              GPS IIR-M Space Vehicle
  7      FA8807-08-C-0006                   Integrate the Selective Availability Anti-Spoofing Module         FFP        4/1/2008       4.3
                                              3.7 Key Data Processor IV (KDP-IV) and produce 150
                                             Defense Advanced GPS Receivers with the 3.7 KDP-IV
  8      FA8808-06-C-0001                      Wideband Global SATCOM Block II Non-Recurring                  FPIF      2/17/2006      148.2
                                               Engineering and Advance Parts for Space Vehicle 4




                                                                 41

Appendix C. Undefinitized Contractual Actions Reviewed (cont’d)
 Space and Missile Systems Center’s Use of Undefinitized Contractual Actions for FY 2004–September 18, 2009

 UCA         Contract       Modification    Description of Supplies or Services Procured                  Contract1   Effective      NTE2
Number       Number          Number                                                                         Type        Date        Amount
                                                                                                                                   (millions)
  9      FA8810-08-C-0002                    Long-lead effort for production of Space-Based Infrared        CPIF      3/14/2008       350.0
                                           Systems (SBIRS) geosynchronous orbit satellite #3 (GEO 3)
                                                  and highly elliptical orbit payload #3 (HEO 3)
  10                        P00002            Production of the third SBIRS GEO 3 and HEO 3 and             CPAF      5/29/2009     1,487.4
                                            modification of the SBIRS ground system to accommodate
                                                operations of three HEO payloads simultaneously
  11                        P00007           Long-lead parts and material procurement for the fourth        CPAF      7/10/2009       262.5
                                                            SBIRS GEO 4 and HEO 4
  12     FA8810-09-C-0002                    Advisory and Assistance Services to fulfill the program        CPFF      3/31/2009        18.0
                                            acquisition and execution responsibilities for the Overhead
                                               Non-Imaging Infrared/Overhead Persistent Infrared
                                                                    mission area
  13     FA8811-08-C-0005                         Delta Buy III Launch Services for the National            FFP       1/24/2008       505.3
                                           Reconnaissance Office Launch (NROL)-32, NROL-27, and
                                                                NROL-49 missions
  14     FA8811-09-C-0003                     Delta Buy III Launch Services for NROL-15 mission             FFP        4/6/2009       184.0
  15     FA8816-04-C-0001                     EELV Space System Acquisition Strategy Evaluation             FFP        6/1/2004          .4
  16     FA8819-08-C-0006                    Start-up activities for the Space-Based Space Surveillance     CPFF      6/24/2008        35.3
                                           (SBSS) Block 10 Maintenance and Operations Requirements
                                                                        activities
  17                        P00002             12-month period of performance necessary to operate,         CPFF      12/22/2008       55.6
                                            support, and maintain the SBSS Block 10 Ground Segment,
                                                   Space Vehicle, and associated support facilities




                                                                42

Appendix C. Undefinitized Contractual Actions Reviewed (cont’d)
 Space and Missile Systems Center’s Use of Undefinitized Contractual Actions for FY 2004–September 18, 2009

 UCA         Contract       Modification      Description of Supplies or Services Procured                Contract1   Effective      NTE2
Number       Number          Number                                                                         Type        Date        Amount
                                                                                                                                   (millions)
         FA8816-06-C-0001
  18                        P00011           Continuous support of the Delta IV Launch Capability for       CPAF      10/1/2007       582.3
                                            the EELV program to include maintaining critical skills and
                                               supporting infrastructure and noninfrastructure-related
                                                                      activities
  19     FA8816-06-C-0004                    Atlas V launch vehicle, including mission-unique airborne      FFP       2/28/2007         3.0
                                            hardware, required to launch the Advanced Extremely High
                                                            Frequency (AEHF) mission
  20     FA8816-06-C-0004   P00003            Begin work on the AEHF-2 mission launch to avoid any          FFP       8/29/2007       119.0
                                                                  delays in schedule
  21                        P00009                     EELV Launch Services for NROL-41                     FFP       12/19/2008      95.7
  22                        P00012                  Atlas Buy 3 Launch Services for AFSPC-2                 FFP       11/6/2008       145.2
         FA8808-04-C-0022
  23                        P00043         6-month period of performance extension to synchronize Risk      CPFF       1/7/2008        75.0
                                           Reduction contract performance ending date with the schedule
                                            for the award of the Development & Production phase of the
                                                 Transformational Communication Satellite (TSAT)
                                                               Space Segment contract
  24                        P00046         6-month period of performance extension to synchronize Risk      CPFF       6/6/2008        75.0
                                             Reduction Systems Definition contract performance ending
                                             date with the schedule for the award of the Development &
                                               Production phase of the TSAT Space Segment contract
  25                        P00052         6-month period of performance extension to synchronize Risk      CPFF      12/24/2008       75.0
                                             Reduction Systems Definition contract performance ending
                                             date with the schedule for the award of the Development &
                                               Production phase of the TSAT Space Segment contract




                                                                 43

Appendix C. Undefinitized Contractual Actions Reviewed (cont’d)
  Space and Missile Systems Center’s Use of Undefinitized Contractual Actions for FY 2004–September 18, 2009

 UCA                Contract            Modification           Description of Supplies or Services Procured                   Contract1        Effective       NTE2
Number              Number               Number                                                                                 Type             Date         Amount
                                                                                                                                                             (millions)
    26         FA8814-08-C-0003                            Payload Delivery Vehicle design, fabrication, integration, test,       CPFF           8/26/2008       12.2
                                                                            and CY 10 flight test support
     27                                  P00006                     Conventional Strike Missile activities through                CPFF           5/15/2009       18.3
                                                                             Preliminary Design Review
1
  FFP: firm-fixed-price; CPAF: cost-plus-award-fee; CPFF: cost-plus-fixed-fee; CPIF: cost-plus-incentive-fee; and FPIF: fixed-price-incentive-fee.
2
  NTE: not-to-exceed amount.




                                                                                   44

Appendix D. Deficiencies Identified
                            Detailed Results of Undefinitized Contractual Actions Reviewed

                                                   Deficiencies in SMC Use of Undefinitized Contractual Actions
 UCA        Contract        Modification   Effective      Inadequate       Definitization   Obligation Limits Exceeded   Profit1
Number      Number           Number          Date       Request to Issue    Untimely          or Maximum Amount
                                                            a UCA                             Obligated at Issuance
  1      FA8807-05-C-0001                  12/16/2004
  2                         P00002         9/14/2005                             √                                         √
         FA8816-06-C-0002
  3                         P00055         10/1/2007                             √
  4                         P00121         11/6/2008                             √                      √2
  5                         P00124         1/16/2009                             √                      √2
  6      FA8807-07-C-0005                  3/21/2007                                                                       √
  7      FA8807-08-C-0006                   4/1/2008                             √                                         √
  8      FA8808-06-C-0001                  2/17/2006                             √                      √3                 √
  9      FA8810-08-C-0002                  3/14/2008                             √
  10                        P00002         5/29/2009                             √                      √2
  11                        P00007         7/10/2009                             √                      √2
  12     FA8810-09-C-0002                  3/31/2009                             √                                         √
  13     FA8811-08-C-0005                  1/24/2008                             √
  14     FA8811-09-C-0003                   4/6/2009                                                    √2
  15     FA8816-04-C-0001                  6/1/2004            √
  16     FA8819-08-C-0006                  6/24/2008                             √                      √3                 √




                                                               45

Appendix D. Deficiencies Identified (cont’d)
                                   Detailed Results of Undefinitized Contractual Actions Reviewed

                                                               Deficiencies in SMC Use of Undefinitized Contractual Actions
 UCA             Contract          Modification       Effective        Inadequate            Definitization    Obligation Limits Exceeded   Profit1
Number           Number             Number              Date         Request to Issue         Untimely           or Maximum Amount
                                                                         a UCA                                   Obligated at Issuance
   17        FA8819-08-C-0006      P00002             12/22/2008                                    √
             FA8816-06-C-0001
   18                              P00011              10/1/2007                                    √
   19        FA8816-06-C-0004                          2/28/2007                                    √                      √3                 √
   20                              P00003              8/29/2007                                    √                                         √
   21                              P00009             12/19/2008                                    √                      √2                 √
   22                              P00012              11/6/2008                                    √                      √2
             FA8808-04-C-0022
   23                              P00043               1/7/2008                                                                              √
   24                              P00046               6/6/2008                                                                              √
   25                              P00052             12/24/2008                                                           √2                 √
   26        FA8814-08-C-0003                          8/26/2008                                                                              √
   27                              P00006              5/15/2009                                                          √2                  √
        Total                                                                 1                     18                    12                  14
√ Discrepancy noted.

1
  No reflection of reduced cost risk in negotiated profit or inadequate profit determination documentation.

2
  Obligated maximum amount allowable before definitization. Not in compliance with August 2008 DPAP memo.

3
  Exceeded 10 U.S.C. 2326(b) limits. 





                                                                              46

Appendix E. Definitization Elapsed Days for SMC UCAs
      Space and Missile Systems Center’s Definitization Details for FY 2004–September 18, 2009


   Contract 
        Effective 
                  Qualifying 
        Definitization 
                       Days From Award to 
            Days From Receipt of          Days From 

   Number 
            Date 
                      Proposal 
             Date 
                             Receipt of Qualifying 
         Qualifying Proposal            Award to 

                                                     Date 
                                                        Proposal 
                  to Definitization          Definitization 

FA8807-05-C-0001      1
 2/16/2004            
 2/23/2005         
             4/6/2005       
                        69      
                     42     
                 111      

    P00002               9
 /14/2005            5/19/2006
                                                   
                           6/30/2006
                                                                                 
                            
         247            
              42             
         289                  

FA8816-06-C-0002                   

    P00055                   1
 0/1/2007            5/25/2007
                                                         
                       6/
26/2008                R
                                                                                                           
 eceived before UCA award date           N/A 
                     269 

    P00121               1
 1/6/2008                11/7/2008
                                                         
                       6/15/2009
                                                                                     
                             
       1          
              220              
        221                  

    P00124              
1/16/2009                  9/17/2009
                                                         
                      9/30/2009

                                                                                     
                                    244            
            13             
         257                  

FA8807-07-C-0005          
3/21/2007          
     7/27/2007         
         11/27/2007             
                  128      
                 123         
             251          

FA8807-08-C-0006               4
 /1/2008            
3/14/2008                
10/15/2008                 Received
                                                                                                              
      before UCA award date           N/A 
                     197 

FA8808-06-C-0001             2
 /17/2006          1
 2/16/2005                
 10/17/2006                 Received
                                                                                                            
        before UCA award date           N/A 
                     242 

FA8810-08-C-0002          
3/14/2008          
   11/21/2008              
       4/8/2009     
                          252      
                 138         
             390          

    P00002                  
5/29/2009              3/21/2009
                                                         
                        6
 /3/2010               Received
                                                                                                               
     before UCA award date           N/A 
                     370 

    P00007                  
7/10/2009              3/21/2009
                                                         
                        6
 /3/2010               Received
                                                                                                               
     before UCA award date           N/A 
                     328 

FA8810-09-C-0002          
3/31/2009          
     5/20/2009         
         12/29/2009             
                  50     
                   223         
             273          

FA8811-08-C-0005          
1/24/2008          
     1/19/2009         
          8/17/2009         
                      361
                       210                       
571
FA8811-09-C-0003                 4
 /6/2009         
1/23/2009                 
 8/17/2009                 R
                                                                                                           
 eceived before UCA award date           N/A                        1
 33
FA8816-04-C-0001                6
 /1/2004    
     7/14/2004         
          9/30/2004         
                      43
                         78
                       121

FA8819-08-C-0006           
6/24/2008         
   10/23/2008          
         10/15/2009         
                      121
                       357                       
478
    P00002           
12/22/2008                    6/18/2009
                                                         
                       1
/14/2010                      
        178          
             210             
         388              

FA8816-06-C-0001                              

    P00011             
10/1/2007                  6/11/2007
                                                       
                        8/1/2008
                                                                                 
                         Received
                                                                                                               
     before UCA award date           N/A 
                     305
FA8816-06-C-0004 
      2/28/2007 
                4/16/2007 
                 10/31/2007 
                               47 
                       198 
                     245
    P00003            8
 /29/2007                   8/8/2007
                                                       
                       5/13/2008
                                                                                
                          R
                                                                                                           
 eceived before UCA award date           N/A 
                     258




                                                                                                           47

Appendix E. Definitization Elapsed Days for SMC UCAs (cont’d)
      Space and Missile Systems Center’s Definitization Details for FY 2004–September 18, 2009


   Contract 
      Effective 
           Qualifying 
   Definitization 
         Days From Award to 
          Days From Receipt of        Days From 

   Number 
          Date 
               Proposal 
        Date 
               Receipt of Qualifying 
       Qualifying Proposal         Award to 

                                            Date 
                                     Proposal 
                to Definitization        Definitization

FA8816-06-C-0004                     

    P00009         1
 2/19/2008          12/23/2008
                                             
             9/10/2009
                                                             
                   
           4         
               261        
            265          

    P00012           1
 1/6/2008         11/26/2008
                                             
             9/13/2010
                                                               
                     
       20            
           656            
        676              

FA8808-04-C-0022          

    P00043              1
 /7/2008     2/29/2008
                                           
              5/19/2008
                                                               
                     
       53            
           80             
        133              

    P00046              6
 /6/2008      8/8/2008
                                           
              10/22/2008
                                                              
                          
   63            
           75             
        138              

    P00052         1
 2/24/2008        2/20/2009
                                           
               5/1/2009
                                                            
                    
           58        
               70         
            128          

FA8814-08-C-0003      8
 /26/2008    
 12/19/2008       
 2/27/2009        
                 115   
                   70     
                185     

    P00006           5
 /15/2009        7/1/2009
                                           
              12/11/2009
                                                            
                            
   47            
           163            
        210              





                                                                               48

Appendix F. Air Force Policy Memorandum
10-C-03


     -'.                            DEPARTMENT OF THE AIR FORCE



  ~~
                                                 WASHINGTON, DC




   --
  OFFICE OF THE ASSI STANT SECRETARY
                                                                                      MAR 17 2010
                                                                                 Policy Memo 10...c..o3


        MEMORANDUM ['OR ALMAJCOM/FOAIDRU (CONTRACTrNG)
                        ALL AFPEO

        FROM : SAF/AQC
               1060 Air Force Pentagon
               Washington, DC 20330-1060

        SUBJECT: Undefinitized Contract Actions

               Defense Federal Acquisition Regulation Supplement (DFARS) Subpart 217.74,
        Undefi nitized Contract Actions (UCAs), implements 10 U.S .C. 2326 and provides Department
        of Defense (000) policies and procedures for the appropriate usc or UCAs and related approval
        requirements. It is DoD policy that UCAs should be used on an inrrequent bas is ror clearly
        defined, urgent requirements and must be definitized within the established schedule.

                orARS 217.7404-3 states that UCAs shall be definitized within 180 days after issuance.
        Unfortunately, the latest Ai r Force (Ar) Consolidated UCA Management Report indicates (he
        majority of AF UCAs are not being definitized within the established schedule. In addition, thi s
        report indicates contracting officers are regularly obligati ng the maximum permissible funding at
        the time ofUCA issuance. In a recent assessment of the use of UCAs throughout DoD, the
        General Accountability Office (GAO) similarly found that most UCAs are issued at or near the
        maximum ob li gation allowed , 50% of the not-to-exceed amount. Further, the GAO review also
        found that , in many cases, contractor incurred costs during the undefinitized period were we ll
        below the maximum amount ob li gated. This particular finding highlights the importance of the
        re lationship between the contracto r's spend plan and the Government's obligation of funds
        during the definiti zation period. Obligating funds in excess of the contractor's spend plan
        encoura ges extended periods of performance prior to definitization. Thercl'Ore, contracting
        officers must only obligate funds consistent with the contractor 's spend plan for the undefinitized
        period.

               DFARS 217.7401 defines a "qualifying proposal " as a proposal containing sufficient
        information to conduct complete and meaningful analyses and audits of the information in the
        proposa1 or connected with the contract. In accordance with FAR 15.408, contracting office rs
        must provide the contractor with clear and concise proposa l instructions to include a suspense
        date for proposal submission. Contract.ing officers may reference DCAA Pamphlet 7641.90,
        January 2005, and the Criteria for Adequate Contract Pricing Proposal Checklist, September
        2009, to assist contractors in understanding applicable requirements and to help facilitate the
        conlract audit process. Contracting orticcrs must require that contractor proposals (both primc and
        subcontractors) are valid for the time required to conduc t the evaluation and audit. Additionally,
        the DCAA Contract Audit Manual, DCAAM 7640.1, outlines lhe audit process to include
        engagi ng with the contracting officer to estab lish agreed upon procedures for the audit. It is




                                                        49

necessary that contracting officers work with DCA A in an effort to ensure contractor proposals
are adequate to support definitization.

       lJCAs create potential risk to the taxpayer as contractors may lack incentives to contro l
costs during the undefinitized period. Every request for a proposal update due to changing
requi rements, proposal expirations, lack of adequate supportable inrormation for audit, etc., may
result in additional proposal costs whether they are charged as a direct or indirect cost. DFARS
2 17.7404-J(b) and the Progress Payments clause provide the Government the right to reduce or
suspend progress payments under specified conditions. Contracting officers should consider
reducing or suspending progress payments (FAR 32.503-6) when the contractor does not submit
a time ly qualifying proposal or has othenvise not supported the established definitization
schedu le.

       The GAO review documented inconsistencies in how contracting officers evaluate cost
risk for incurred costs. This finding is consistent with a prior DoDIG report which stated that
UCAs transfer additional cost and performance risks from contractors to the Government
because in most cases, the contractor is reimbursed fo r all allowable costs incurred. With all
allowable costs reimbursed, the contractor has reduced incentive to control costs. DFARS
2 17.7404-6 provides basic guidance for conducting profit/fee negotiations, and properly
accounting for contractor risk, during the definitization process. Contracting officers must also
adhere to the guidance al DFARS 215_404-71 -3(d)(2) which indicates that, when costs have been
incurred prior to definitization, generally the contract type ri sk should be regarded to be in the
low end of the designated range . If a substantial portio n of the costs have been incurred prior to
definitization, contracting officers may assign a value as low as 0 percent, regardless of contract
type. AFMC maintains a web-based Weighted Guidelines program available at
httpsJ/www.wgJ.wpafb.af.miVwgl!.This web-based tool provides the capability to address
incurred costs in the profit analysis for UCAs and is avai lable for all AF contracting
organizations. Contracting officers must use this tool throughout the UCA negotiation process to
make adjustments to the AF profit objective for costs incurred.

            The manner in which Contractor Performance Assessment Reporting System (CPARS)
Assessing Officials arc rating contractOr performance in the area of Management
ResponsivenesslBusiness Relations (Dlock 18d) has been a focus area during recent UCA
reviews perfonned by AQC . Findings indicate that CPARS Assessing Officials are assigning
littl e, ir any. significance to contractor performance under UCAs, to include contractor
performance in the time ly submission of quality proposals in support of the definitization of the
contract action when assigning overall performance ratings . Assigned CPAR ratings must track
to the definitions provided in Attachment 2, "Evaluation Ratings Definitions" to the DoD
CPARS Policy Guide. A singular performance problem, such as the fai lure to submit a timely,
complete and quality proposal (or subsequent data submissions), in cOfU1ection with a UCA is of
such serious magnitude that it alone justifies an unsat isfactory (red) rating in the assessment or
Management Responsiveness (Block 18d of a CPAR for Systems) or Business Re lations (Block
18d of a CPAR for Services, Information Technology, or Operations Support). When
comp leting Block 20 Assessing Official Narrative, Assessing Officials must fully explain the
contractor' s performance during the UCA. including detinitization of the contract action, shall
base the assessment on factual , objective data, and sha ll support the adjectivallcolor ratings


                                                 2




                                                50

assigned to area assessments. Moreover, rather than wailing until the next scheduled
Intermediate Report is due, Assessing Officials should give serious consideration to processing
an out-of cycle report if a significant change during perfonnance under a UCA as described
above alters the assessment in one or more assessment areas .

     FAR 1.602-2 states contracting officers are responsible for ensuring performance of all
necessary actions for effective contracting, ensuring compliance with the terms of the contract,
and safeguarding the interests oft-he United States in its contractual relationships. SAF/AQ
Memo, Air Force Acquisition Business Ru les of Engagement, dated February 20 I 0, states
contract lead times should not be based on the usc of UCAs , which should be used only for
exceptio nal cases. 'fherefore, program managers and contracting officers have the responsibility
to ensure UCAs are used on an infrequent basis for clearly defined, urgent req ui rements and are
definitized within the established schedule.

       To assure that UCAs are definitized effectively, 1 am establish ing a management review
and reporting requirement for any UCA that falls more than 14 days behind its schedule at any
point in the dcfinitization process. The COgOii'Mt SeQ/seeQ must review each such UCA
monthly and provide the DAS(C) a status report identify ing the re medial actions that have been
or are being taken with respect to the UCA. The report, in e-mail format, shall be sent to
safagck.wo rkflow@pentago n.af.mi l. Further, the DAS(C) shall require the SeD/SeeD and any
members of the definitization (earn to brief the appropriate HAF staff on the status of any UCA
not definitized within 180 days of issuance.

     [ f you have any questions,
(703) 588-7071, DSN 425-7071




                                                     Assistant Secretary (Acquisition)




                                                3




                                               51

Air Force Space and Missile Systems Center Comments





                              DEPARTMENT OF THE AIR FORCE
                        HEADQUARTERS SPACE A ND MISSILE SYSTEMS CENTER (AFSPC)
                               LOS ANGELES A IR FORCE BASE, CALIFORNIA




                                                                                      NOV 1 5 1010
       MEMORANOUM FOR HQ DOD IG

       FROM: SMClPK

      SUBJECT: 000010 Draft Audit Report "Air Force Space and Missile Systems Center's Use of
      Undefinitized Contractual Actions," (Project No.   D2009~DOOOCG-0248.002)    dated September
      29,2010

      I. TIle Space and Missile Systems Center (SMC) considers proper management of
      Undefinitized COlltracnlai Actions (UCA) of the utmost importance. SMC has executed a
      number of initiatives to definitize UCAs in a timely manner and reduce the number of UCAs in
      its portfolio. Since Feb 2010, SMC has reduced the number of open UCAs by 94.8 percent going
      from 32 to 2. In addition, in Apr 2010, the SMC Director ofContractillg rescinded previously
      existing UCA approval delegations, therefore UCAs can now only be authorized by the Director
      of Contracting.

      2. lAW AFI 65·30 I, Audi t Reporting Procedures, we are providing the fOllowing comments to
      your audit recommendations:
                                  Click to add JPEG file
         •   Recommendation 1 - pa ge 30: Develop a metric for measuring contractor
             responsiveness in preparing qual ify ing proposals.

         o   COMMENT: SMClPK Concurs with this comment. SAF/AQC manages a robust UCA
             tracking metrics. SMClPK completes and report's on this melrics twice a month.
             Additionally, responsiveness is addressed in diffe rent forums sllch as Board of Director
             Reviews. Contractor Performance Assessment Reporting System (CPARS), Senior
             Executive periodic meetings and conferences. The Program Executive Officer for Space
             (PEO/SP) conducts quarterly Benchmarking (Board of Director) sessions with Vice
             President level SMC prime contractor personnel. At these events, significant areas of
             concern are addressed with suspenses given for resolution. The issue of proposal
             timeliness bas been a major topic at these forums. PEOISP also holds quarterly Program
             Management Reviews with each Wing at which contractor CPARS and awa rd fee data
             are reviewed. In terms ofCPARS, the matter of proposal quality is considered in the
             preparation of all CPARS reports and the Wings comment on those that arc not done
             properly . The need for any additional responsiveness metric wil l be evaluated. Estimated
             Completion Date: 120·Days after issuance of the fo rmal aud it repol1.

         •   Recommcndation 2 - pagc 30: Require that Ai r Force Space and Missile Systems
             Center contracting personnel minimize the use of undefinitizcd contractual actions by
             better coord inating with Cllstomers to identify changes in Government requirements in a
             timely manner and docu ment changes in the acquisition narrative.




                                                                 52
o   COMM ENT: SMC/PK Concurs with this comment. The significant center-level
    emphasis on UCAs and the singular authority of UCA issuance (SMClPK) have
    established an environment where program personnel are responsive to the Director of
    Contract ing's guidance regarding up front planning to avoid UCAs. This is evident in the
    facl that no UCAs have been issued since the Director of Contracting issued a memo,
    rescinding approval for SMC Wing/Group Chiefs of the Contracting Office (COCO) 10
    issue UCAs. Additionally, SMClPK persOlUlel are implementing the Office oflhe
    Assistant Secretary of the Ai r Fo rce Memorandum 10-C-04, dated March 24, 2010.
    Moreover, SMClPK has communicated extensively with industry senior contracting
    representatives on the need to improve proposal timeliness, increase quality and reduce
    UCA re liance. SMClPK considers this action complete.

•   R cco llllll cndlltion 3 - page 30: Update the Space and Missile Systems Center Buyer's
    Handbook with emphasis on the importance of definitizi ng undefinitized contractual
    actions within ISO-day time frames.

a   COMl\Il ENT: SMCIPK Concurs with this comment. TIle buyers handbook shall be
    updated. Estimated Completion Date: 120-Days after issuance of the fo rmal audit report.

•   Reco mm enda tion 4 - page 31: Update the Space and Missile Systems Center Buyer's
    Handbook with guidance on how contracting personnel can document their cons ideration
    of reduced risk on the contractor's profi t or fee when definitizing undefinitized
                          Click to add JPEG file
    contrdclllal actions. Addit ionally, the guidance should include instructions on how
    contracting personnel should develop and document the Government 's objective for
    profit or fee when definitizing an undefi nitized contractual action.

o   COMME NT: We request your recommendation be revised to include "Update the Space
    and Missi le Systems Center pricing guidance and training" instead of "Update the Space
    and Missile Systems Center Buyer's Handbook." The Buyers Handbook will reference
    the pricing guidance fo r pricing re lated issues. Estimated Completion Date: 120-Days
    after issuance of the fonnal audit report,

•   Reco mmend at ion 5 - page 31: Update the Space and Missile Systems Center Buyer's
    Handbook with requirements for contracting personnel to include in the profit section of
    the price ncgotiation memorandum: incurred cost, contract type risk used for both the
    undefinitized period and remainder of the contract, and the impact that the use of the
    undefinitized con tractual action had on the contractor's profit or fee. In addition, include
    instructions fo r contracting personnel to include and d iscuss inputs made to the contract
    type risk of DO Form 1547," Record of Weighted Guidelines Application."

o   C OMM ENT: We request your recommendat ion be revised to include "Update the Space
    and Missile Systems Center pric ing guidance" instead of "Update the Space and Missile
    Systems Center Buyer's Handbook." The Buyers Handbook will reference the pricing
    guidance fo r pric ing related issues. Estimated Completion Dale: 120-Days afier issuance
    of the fonnal audit report.




                                                          53
    •    R ccommcndation 6 - pagc 3 1: Require contracti ng personnel to refrain fro m obligati ng
         funds to the max imum amou nt allowable for allundefini tized contractual actions so that
         both users and contractors have incentive to coordinate earl y and often abollt proposals,
         contractual needs, and fund ing.

   o COMMENT: SMCfPK Concurs with this comment. We will ensure DFAR 217.7404-4,
         Limitations on Obligations, and SAFfA QC Policy Memo 10~C-03 dated March 17,20 10
         "Undefi nitized Contract Actions" are com plied with. Estimated Completion Date: 120-
         Days after issuance of the formal audit report.

3. Please contact                                                            SMC A udit Foca l
Point,                                                   with questions.




                                                      ~~  Director of Contracting




                              Click to add JPEG file




                                                            54
